<html>
<title> - AVIATION SAFETY: THE HUDSON RIVER MIDAIR COLLISION AND THE SAFETY OF AIR OPERATIONS IN CONGESTED SPACE</title>
<body><pre>[Senate Hearing 111-493]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-493
 
                AVIATION SAFETY: THE HUDSON RIVER MIDAIR
                      COLLISION AND THE SAFETY OF
                   AIR OPERATIONS IN CONGESTED SPACE

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
54-284                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Ann Begeman, Acting Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
MARK PRYOR, Arkansas                 SAM BROWNBACK, Kansas
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 15, 2009...............................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Lautenberg..................................     3

                               Witnesses

Richard L. Day, Senior Vice President for Operations, Air Traffic 
  Organization, Federal Aviation Administration..................     4
    Prepared statement...........................................     9
Hon. Christopher A. Hart, Vice Chairman, National Transportation 
  Safety Board...................................................    11
    Prepared statement...........................................    12
James K. Coyne, President, National Air Transportation 
  Association....................................................    16
    Prepared statement...........................................    19
Edward Kragh, Certified Professional Controller, Adjunct to FAA 
  NY VFR Airspace Task Force, NATCA..............................    22
    Prepared statement...........................................    24

                                Appendix

Letter, dated August 10, 2009, to Hon. Byron L. Dorgan from Hon. 
  Frank R. Lautenberg............................................    43
Craig L. Fuller, President, Aircraft Owners and Pilots 
  Association, prepared statement................................    43
Ed Bolen, President and CEO, National Business Aviation 
  Association, prepared statement................................    48
Response to written questions submitted by Hon. Byron L. Dorgan 
  to:
    Hon. Christopher A. Hart.....................................    57
    James K. Coyne...............................................    57
    Richard L. Day...............................................    58
Response to written question submitted by Hon. Frank R. 
  Lautenberg to Richard L. Day...................................    58
Response to written question submitted to Edward Kragh by:
    Hon. Byron L. Dorgan.........................................    58
    Hon. Frank R. Lautenberg.....................................    59


                   AVIATION SAFETY: THE HUDSON RIVER
                   MIDAIR COLLISION AND THE SAFETY OF
                   AIR OPERATIONS IN CONGESTED SPACE

                              ----------                              


                      TUESDAY, SEPTEMBER 15, 2009

                               U.S. Senate,
 Subcommittee on Aviation Operations, Safety, and Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. I am going to call the hearing to order. I 
want to thank everyone for joining us today.
    Senator Lautenberg, who had requested the hearing, is on 
the floor of the Senate. He will be with us momentarily. And at 
some point, Senator Lautenberg will also continue chairing the 
hearing.
    But I want to thank everyone for joining us.
    The purpose of this hearing is to review the midair 
collision of a plane and a helicopter over the Hudson River, 
but more generally, as a result of that tragedy, to review the 
issue of the safety of airspace where there is significant 
aircraft activity which includes on-demand traffic. We do not 
wish to diminish the value and the importance of on-demand 
traffic. That is not the purpose of this.
    But Senator Lautenberg had originally requested this 
hearing. Obviously, the safety of the Hudson River airspace is 
important to him and his constituents and it is important to 
all of us as well.
    On August 8, 2009, a helicopter and a private airplane 
collided over the Hudson River killing both pilots, five 
passengers on the helicopter and two passengers aboard the 
airplane. That tragic accident should cause the FAA to review 
the safety of what is known as the Hudson River Class B 
Exclusion Area, as well as the more general safety of on-demand 
aircraft. On-demand operators are subject to less oversight and 
regulation than are scheduled commercial air carriers and they 
tend often to operate in higher risk environments such as 
flying at lower altitudes, departing and arriving at unfamiliar 
airports, and conducting more takeoffs and landings. And as a 
result, on-demand operators are more likely, much more likely 
based on the data to have a fatal accident than commercial air 
carriers, according to Government statistics that we have.
    Many safety regulations applicable to on-demand operators 
have not been updated since 1978. Since this time, the on-
demand industry has changed significantly, especially in light 
of modern aircraft, new technologies, and new operating 
environments.
    While the NTSB has not finished its investigation into this 
accident, they have, in fact, issued several safety 
recommendations for the Hudson River Exclusion Area. In 
addition, the FAA established a special panel following the 
midair collision and also recently announced topics of new 
rules it plans to implement for the Exclusion Area by November 
19 of this year.
    Generally, I am troubled that there has been very little 
action over the years updating the rules for what is called 
Part 135 operators like the helicopter involved in this 
accident. In 2003, the FAA formed an Aviation Rulemaking 
Committee to review Part 135 regulations and to make 
recommendations. After 2 years of analysis, the ARC made 124 
recommendations to improve the safety of on-demand operators. 
To my knowledge none of the recommendations have been adopted 
by the FAA.
    I know that Administrator Babbitt plans to have the FAA 
either adopt or issue responses addressing all of the many 
outstanding NTSB recommendations, but 16 of the recommendations 
of the NTSB for on-demand operators currently remain open.
    Finally, I want to mention that we will significantly 
improve aviation safety in the future by modernizing our air 
traffic control system. It is unbelievable to me that we 
continue to use ground-based radar. We need to pass the FAA 
reauthorization bill through the Congress. It is out of this 
Committee and we are working to try to get it to the floor and 
to get a conference so that we can move up the date of the 
transition to the next generation. And this will help us with 
areas like the Hudson River where tall buildings in that area 
prevent a reliable guidance of aircraft by radar.
    Now, let me just point out I think most Members of Congress 
very likely will have traveled in the area we are talking about 
today. The Hudson River airspace is a very busy airspace. There 
are special rules that apply to that airspace, and most of us, 
including myself, have flown in that airspace.
    I, too, have flown by myself and also with others in 
charter planes in a different kind of airspace in North Dakota. 
In the North Dakota airspace, using VFR flight rules, we do not 
see a lot of traffic, and when we know of traffic that is 
around us, it is pretty easy to spot it. So it is a very 
different environment.
    The Hudson River exclusion, the Class B Exclusion Area, is 
an acknowledgement that that is a different environment too, 
vastly different from what I just described as someone piloting 
an airplane in North Dakota. So that exclusion is designed to 
try to promote safety, and to recognize that there are 
limitations with respect to radar coverage. And as I have read 
and studied what happened on that day in that airspace, it 
occurs to me that a number of mistakes occurred. We know, of 
course, of an air traffic controller on the telephone at a 
critical time. I should not begin to start even, but a number 
of mistakes occurred. But in addition to the mistakes, we also 
now understand, having worked through it some, that there are 
just significant limitations in that area with respect to 
ground-based radar capability.
    So having said all of that, Senator Lautenberg had asked 
whether we would convene a hearing, and I said I thought it was 
valuable to do so. As I indicated, he will be with us shortly.
    And we will be hearing testimony today from four witnesses: 
Mr. Rick Day, the Senior Vice President of Operations at the 
FAA; Mr. Christopher Hart, who is the Vice Chairman of the 
NTSB; Mr. James Coyne, the President of the National Air 
Transportation Association; and Mr. Edward Kragh, the Certified 
Professional Controller, Newark Tower, National Air Traffic 
Controllers Association. I appreciate all four of you being 
here, and I will begin asking for testimony from Mr. Day.
    Again, let me say that Senator Lautenberg will be here in a 
while, and when he is here, I will have to leave and he will 
chair the hearing at an appropriate point.
    But I thank all four of you for taking the time to share 
with us some of your thoughts and observations and provide 
information about what I have just described.
    Mr. Day, you and all of the witnesses should know that all 
of your full statements will be a part of the permanent record, 
and we would ask all four of you to summarize. And you may 
proceed.
    Senator Lautenberg has just come. What I would like to do, 
before we hear from you, Mr. Day, I have Senator Lautenberg 
giving an opening statement. I talked about your interest in 
having us call this hearing and the value, I think, of having 
an opportunity to discuss what happened with respect to this 
tragedy and more generally the issues surrounding on-demand 
flights. So let me call on you.
    I did indicate further, as I call on you, that we are going 
to have four witnesses and then at some moment I will have to 
depart, and I have asked if you would be willing to chair the 
panel as well.
    So, Senator Lautenberg, thank you.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. And I thank you very much, Mr. 
Chairman. I am sorry that this subject, with all of its 
importance, had to be delayed because we had something on the 
floor going about transportation. So again, I will just take a 
few minutes so we can move things along.
    Last month, in the middle of the travel and tourism season, 
in the middle of the business day, there was a terrible tragedy 
that took place over the Hudson River. It is an area, by the 
way, that I live in right essentially alongside the Hudson 
River in New Jersey.
    A small, private airplane that took off from Teterboro 
Airport in New Jersey--and also I used to be a Commissioner of 
the Port Authority, so we had jurisdiction over that airport--
collided with a tourist helicopter that took off from New York 
City. Nine people on the plane and the helicopter lost their 
lives. Clearly, our first thoughts are with the victims' 
families. What began as a day of anticipated fun and pleasure 
and business also ended as a day of disaster and mourning.
    But now our thoughts are also needed to look at the future, 
preventing a tragedy like this from happening again. That is 
the reason I wrote to Chairman Dorgan and asked that we convene 
this hearing, and I thank him for agreeing and holding it here 
today.
    We both agree this deadly crash highlights major safety 
concerns with largely unregulated and densely congested 
airspace below 1,100 feet over the Hudson River known as the 
``Exclusion Area.'' More than 200 aircraft fly through this 
area every day and pilots must navigate the busy skies through 
a tactic known as ``see and avoid.''
    In this congested airspace, it is not enough for pilots to 
simply look both ways. Everyone knows that the employment of 
TCAS, or collision avoidance equipment, is now common 
throughout the country in small planes, as well as commercial. 
I sometimes sit in a second seat in an airplane, a single-
engine, and we have got TCAS. It really is a wonderful system. 
Its mission is: avoid this kind of a thing from happening.
    So, I applaud the Administrator, Randy Babbitt, for 
convening the New York Airspace Task Force immediately after 
this accident. The FAA Task Force and the NTSB have made 
preliminary recommendations to better manage this airspace and 
improve pilot and controller training. It is a good start, but 
we need to do more.
    We need to fully staff the overburdened air traffic control 
towers in the New Jersey-New York region, the most congested 
airspace in the country. We need technology to track all 
aircraft operating in this airspace.
    So, today, I am calling on the FAA to expedite the 
implementation of NextGen air traffic control technology in the 
New York-New Jersey airspace and work closely with air traffic 
controllers throughout this transition.
    We also have to address the general concern about on-demand 
aircraft. On-demand aircraft receive less oversight from the 
FAA and have more fatalities for flight movement than 
commercial aircraft, according to a report issued by the 
Department of Transportation's Inspector General last month. In 
fact, on-demand aircraft are 50 times more likely to have a 
fatal accident than commercial carriers, and unfortunately, the 
FAA rules for on-demand aircraft have not been updated since 
1978.
    So, I look forward to learning what FAA intends to do to 
address the safety of these planes and their passengers.
    Mr. Chairman, the New York-New Jersey region is one of the 
busiest in the country for travel tourism and economic 
activity. We cannot stand by and permit people's lives or our 
economy to be threatened by gaps in the safety of our aviation 
system.
    Thanks, Mr. Chairman.
    Senator Dorgan. Senator Lautenberg, thank you very much for 
your leadership on this issue.
    Mr. Day, you may proceed.

    STATEMENT OF RICHARD L. DAY, SENIOR VICE PRESIDENT FOR 
    OPERATIONS, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Mr. Day. Chairman Dorgan, Senator Lautenberg, and Members 
of the Subcommittee, thank you for inviting me here today to 
discuss the very sad events of August 8, 2009 and what FAA is 
doing to create a safer operating environment over the Hudson 
River.
    Mr. Krakowski and Ms. Gilligan send their regrets that they 
cannot appear before you today. They do want me to express that 
everyone at FAA grieves with the families over the loss of life 
that occurred that day. When such events do occur, we redouble 
our efforts to make the skies safer. My colleagues at FAA and 
throughout the aviation industry approach this work with 
seriousness and urgency.
    Since the investigation of the accident remains under the 
formal processes of the NTSB, I will not be commenting on the 
specifics of the accident. I will, however, share with you the 
immediate actions we have taken, as well as discuss some of our 
longer-range plans to improve safety.
    It is important to note that following the accident on 
August 14, the FAA formed the New York Airspace Task Force, 
made up of both internal and external stakeholders, to review 
the current procedures for Hudson River operations with regard 
to safety of flight, operations, and regulatory compliance and 
to make recommendations to Administrator Babbitt no later than 
August 28, just 2 weeks later. These recommendations are 
available to the public and will be published in the Federal 
Register tomorrow and we expect to be able to implement these, 
following the public comment period, by November 19, 2009.
    I will make use of some prepared slides to provide an 
overview of these recommendations to the Committee. The first 
two slides outlining the eight recommendations are contained in 
your package, and we will, in the interest of time, pass over 
those. They will be articulated as part of the presentation.
    If we go to chart 1, chart 1 is a top-down view of the 
accident location. It gives an orientation of the New Jersey 
and New York airports, the Hudson River, as well as the Statue 
of Liberty, and gives an overview of the area of the accident.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chart 2 is a side view of the current airspace and 
operations. I would like to draw your attention to the Class 
Bravo airspace at the top of the slide. Class Bravo airspace is 
airspace designed and regulated by rulemaking. Its purpose is 
to contain air transport category-type operations in the 
vicinity of air transport-type airports to protect the safety 
of those flights and to assure that everyone in that airspace 
is talking to a controller and is equipped with equipment to 
make sure we have positive identification of that aircraft.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In this case, an examination of the Class Bravo airspace 
shows the floor of that airspace fluctuates between 1,100 and 
1,500 feet. This has an opportunity for coordination risks or, 
in some cases, because of the different floor levels, a risk of 
being on one frequency when you should be on a radio frequency 
talking to another controller.
    Below that airspace is uncontrolled airspace where pilots 
operate under the ``see and be seen'' visual flight rules. This 
contains a mix of both transit aircraft, over 200 per day, that 
are flying up and down the Hudson River, as well as float 
planes and helicopter aircraft maneuvering for their mission in 
the vicinity of the Hudson River and along the sides of the 
river.
    Chart 3. This is a top view of the current airspace and 
operations. I would like to draw your attention to the area of 
the accident. Local and overflight traffic merge in this area 
and because of the various missions, we have a high 
concentration of aircraft frequently at 1,100 feet. I will 
speak more to that in a moment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chart 4 is a side view looking from the New Jersey coast 
toward Manhattan. Our recommendations from the Task Force 
include the Class Bravo airspace floor which will be configured 
at a consistent altitude of 1,300 feet. For those VFR aircraft 
that wish to receive Class Bravo VFR advisories, they will 
operate between 1,300 and 2,000 feet under the control of air 
traffic controllers. Between 1,000 and 1,300 feet, the aircraft 
transiting the area or on a VFR flyway will be contained at 
those altitudes and on a common traffic advisory frequency. And 
for that local traffic of float planes, law enforcement, Coast 
Guard, et cetera, they will operate below 1,000 feet, and, 
again, be on a common traffic advisory frequency.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    If we could turn to chart 5, which continues with the 
proposed recommendations: for those aircraft that are departing 
under visual flight rules from Teterboro, rather than merging 
in that high area of concentration I spoke to, they will be 
instructed to depart east and join the corridor over the George 
Washington Bridge. This is a much less congested area, and this 
will give them an opportunity to exercise due caution operating 
in that airspace. Likewise, for those aircraft northbound, they 
will hug the east side of the Hudson River, and those 
southbound, the west side, much like we do on the Nation's 
highways.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition, those procedures that we have recommended to 
date, which have been effective in assuring safety will be 
mandated now to assure a higher level of safety and to be 
responsive to the Board's recommendations. This required 
aircraft to identify their aircraft type, color, and direction. 
They will also have to have their collision lights on, as well 
as their landing lights, and they will operate at a speed no 
greater than 140 knots. They will also be required to carry a 
set of new charts with them in addition to their sectional VFR 
charts, and also those charts containing the operations of the 
helicopter-type operations below, as well as the VFR transition 
routes. Likewise, the helicopter and float plane operations 
will have similar charts.
    These proposed rules will be published in the Federal 
Register with a 30-day comment period, and we expect to have 
these ready for publication and implementation by November 19.
    That ends my oral presentation. I look forward to your 
questions.
    [The prepared statement of Mr. Day follows:]

    Prepared Statement of Richard L. Day, Senior Vice President for 
 Operations, Air Traffic Organization, Federal Aviation Administration

    Chairman Dorgan, Senator DeMint, and Members of the Subcommittee:
    Thank you for inviting me here today to discuss the very sad events 
of August 8, 2009, and what FAA is doing to create a safer operating 
environment over the Hudson River. Everyone at FAA grieves with the 
families over the loss of life that occurred that day. When such events 
do occur, we redouble our efforts to make the skies safer. My 
colleagues at FAA and throughout the aviation industry approach this 
work with seriousness and urgency.
    Since the investigation of the accident remains under the formal 
processes of the National Transportation Safety Board (NTSB), I will 
not be commenting on the specifics of the accident. I will, however, 
share with you the immediate actions we have taken, as well as discuss 
some of our longer-range plans to improve safety.
    The FAA's first action was taken on August 11. We issued a Notice 
to Airmen (NOTAM) that reiterated our recommended best practices for 
conduct of flight in the airspace of the Hudson River corridor. New 
York airspace is very restricted by a large volume of ``Class B'' 
airspace, which is designed to provide positive protection of airliners 
using LaGuardia, John F. Kennedy International, and Newark Liberty 
International Airports. All aircraft within Class B airspace must be 
under positive control by air traffic controllers.
    There are areas known as ``VFR flyways,'' where we permit aircraft 
operating under Visual Flight Rules (VFR) to fly within a defined 
corridor and below certain altitudes without being under positive air 
traffic control. These VFR flyways use ``see and be seen rules,'' where 
pilots are responsible for maintaining safe distance from other 
aircraft. In New York, this VFR flyway is commonly called the 
``exclusion area,'' which has existed in some form since 1971, and is 
bounded by the Hudson River and has a ceiling of either 1,100 feet or 
1,500 feet. (See Figure 1.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The August 11 NOTAM reiterated long-recommended practices for this 
VFR flyway, including speed limitations (not exceeding 140 knots) and 
taking precautionary measures (turning on anti-collision, position/
navigation, and/or landing lights and self-announcing their position on 
the Hudson River frequency for all other aircraft to hear).
    We recognized this was only the first step to assess and enhance 
the safety of Visual Flight in this area. On August 14, 2009, we 
chartered a New York Airspace Task Force to review the current 
procedures for Hudson River operations, specifically with regard to 
safety of flight, operations, and regulatory compliance and make 
recommendations to Administrator Babbitt no later than August 28--just 
2 weeks later. The Task Force consisted of FAA air traffic and aviation 
safety experts, as well as air traffic controllers representing the 
National Air Traffic Controllers Association (NATCA) who work in this 
area. We also had input from key stakeholders--such as Helicopter 
Association International, the Aircraft Owners and Pilots Association, 
and the Port Authority of New York/New Jersey. The group delivered 
these recommendations to Administrator Babbitt on time on August 28. We 
thank the Task Force members for their efforts, particularly given the 
short timeline. Because we believe that their recommendations will 
enhance the safety of this airspace, we intend to implement their 
recommendations via expedited rulemaking and revised letters of 
agreement with the area airports and operators.
    The Task Force recommended eight specific safety and operational 
enhancements that would restructure the airspace, mandate pilot 
operating rules, create a new entry point into the Hudson River 
airspace from Teterboro, and standardize New York area charts and maps. 
They also recommended developing new training for pilots, air traffic 
controllers, and helicopter operators so they will be fully trained and 
ready for implementation of the new rules. One of the most significant 
changes would divide the airspace into altitude corridors that separate 
aircraft flying over the river from those operating to and from local 
heliports or seaplane bases. (See Figure 2.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This new exclusionary zone would be comprised of three components:

  <bullet> It would establish a uniform ``floor'' for the Class B 
        airspace over the Hudson River at 1,300 feet, which would also 
        serve as the ``ceiling'' for the exclusionary zone. This 
        removes some confusing complexity that currently exists.

  <bullet> Between 1,300-2,000 feet, aircraft will operate in the Class 
        B airspace under visual flight rules but under positive air 
        traffic control and communicate with controllers on the 
        appropriate air traffic frequency.

  <bullet> Below 1,300 feet, aircraft must use a single common radio 
        frequency. Mandatory routes for aircraft flying up and down the 
        river will require them to favor the ``right side'' of the 
        river (i.e., the east side for northbound traffic and the west 
        side for southbound traffic) to provide horizontal separation 
        as well.

  <bullet> Coordination of traffic and handoffs between Air Traffic 
        Controllers at the Teterboro tower, Newark tower, and radar 
        control will be improved.

    The new rules will mandate that pilots use two specific radio 
frequencies--one for the Hudson River and the other for the East River. 
It mandates speeds of 140 knots or less and the use of anti-collision 
lights and landing lights in the VFR routes. The rules would also 
require pilots to announce their position when they reach various 
points up and down the river. Pilots would also be required to have 
charts available in the aircraft and to be familiar with and comply 
with the airspace rules.
    The FAA also intends to propose standardized procedures for fixed-
wing aircraft leaving Teterboro to enter either the Class B airspace or 
the exclusionary zone. The proposal would require that before an 
aircraft planning to enter the Class B airspace takes off, Teterboro 
controllers would request approval from the Newark tower for the 
aircraft to climb to 1,500 feet. Aircraft from Teterboro that want to 
enter the VFR flyway would be directed by air traffic control to fly a 
special route over the George Washington Bridge, which would allow them 
to enter the Hudson River airspace in a much less congested area.
    The FAA expects the expedited rulemaking covering these issues to 
be completed, and have all pilot and controller training completed in 
time for publication of new charts and new rules by November 19.
    The effort with New York airspace has wider implications for the 
national airspace system. As we implement these changes in the New York 
airspace and have an opportunity to analyze their effectiveness, the 
FAA intends to examine the other major metropolitan areas and congested 
corridors for similar airspace and operational risks to see if such 
procedures would be appropriate elsewhere. We expect this larger effort 
to carry well into next year.
    Mr. Chairman, Senator DeMint, and members of the Subcommittee, this 
concludes my prepared remarks. I look forward to answering any 
questions that you may have.

    Senator Lautenberg [presiding]. Thank you very much.
    Mr. Hart, I think you are next, please.

STATEMENT OF HON. CHRISTOPHER A. HART, VICE CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Hart. Good afternoon, Senator Lautenberg. Thank you 
very much for the invitation to speak before the Subcommittee.
    With your concurrence, I would like to begin my testimony 
with a short summary of the NTSB's investigative actions to 
date regarding the investigation of this accident involving the 
midair collision over the Hudson River.
    I want to emphasize that this is still an ongoing 
investigation and that there is significant work left for our 
investigative staff.
    My testimony today will be limited to those facts that we 
have identified to date, but I will not provide any analysis or 
make any conclusions regarding what we have found so far. 
Although we have identified some areas of concern that have 
prompted us to issue safety recommendations, we have not 
determined the cause of this accident or the role that any 
individual mechanism or organization may have played in the 
accident.
    The Piper aircraft involved in this accident departed 
Teterboro Airport and was going to Ocean City, New Jersey. The 
aircraft was operated by a private pilot who requested a 
clearance to an altitude of 3,500 feet and requested VFR radar 
traffic advisory service. He elected to use the Hudson River 
Class B Exclusion Area as part of the route, which necessitated 
eventual coordination with controllers at Newark for 
authorization to climb into the Class B airspace.
    The helicopter involved in the accident departed the West 
30th Street heliport, which is within the Class B Exclusion 
Area, for a 12-minute sightseeing flight and was operated under 
CFR Parts 135 and 136. The initial part of the tour was to be 
flown below the Class B airspace so the pilot was not required 
to contact air traffic control.
    The Piper received a takeoff clearance from the Teterboro 
controller at 11:48:30. At 11:50:31, the Teterboro controller 
began a personal telephone call and continued to handle other 
traffic. The Teterboro controller performed a verbal handoff to 
Newark, which occurred at 11:52:20. The Newark controller 
attempted to contact the Teterboro controller at about the same 
time as the verbal handoff.
    This map shows a radar ground track of the Piper up to the 
point of the handoff to Newark. Teterboro Airport is noted at 
the top of the slide, and the direction of travel is denoted by 
the white arrow. Also the area shaded in red indicates where 
the floor of the Class B airspace extends below the Piper's 
current altitude.
    The helicopter appeared on air traffic control radar at 
11:52:27, after the Piper had been verbally handed off to 
Newark. The Teterboro controller attempted to contact the Piper 
at 11:52:48, and his personal phone call ended at 11:53:13, 
which was 1 second before the collision. The Teterboro 
controller then contacted Newark to ask about the airplane and 
was told that the pilot had not yet called.
    This plot shows the path of the Piper in yellow and the 
helicopter in blue up to the point of collision, which occurred 
at 1,100 feet. The departure heliport of the helicopter is 
shown in the green circle, and the directions of travel are 
indicated by the white arrows. Radar data shows that the 
airplane was at a constant altitude and the helicopter was 
climbing, at the time of the collision.
    The collision was photographed by several witnesses, as 
shown on this and the next few slides. This evidence is being 
examined by Safety Board staff.
    Next slide, please.
    Senator Lautenberg, this concludes my presentation, and I 
would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Hart follows:]

  Prepared Statement of the Hon. Christopher A. Hart, Vice Chairman, 
                  National Transportation Safety Board

    Good afternoon. With your concurrence, Mr. Chairman, I would like 
to begin my testimony with a short summary of the National 
Transportation Safety Board's (NTSB) actions to date regarding the 
investigation of the recent mid-air collision over the Hudson River. I 
want to emphasize that this is still an ongoing investigation and that 
there is significant work left for our staff. My testimony today will 
be limited to those facts that we have identified to date, but I will 
not provide any analysis or make any conclusions about what we have 
found so far. Although we have identified some areas of concern that 
have prompted us to issue safety recommendations, we have not 
determined the cause of this accident or the role any individual, 
mechanism or organization may have played in the accident.
    On August 8, 2009, about 11:53 eastern daylight time,\1\ a 
Eurocopter AS350 BA helicopter, N401LH , operated by Liberty 
Helicopters, and a Piper PA-32R-300 airplane, N71MC, operated by a 
private pilot, collided over the Hudson River near Hoboken, New Jersey. 
The certificated commercial pilot and five passengers aboard the 
helicopter and the certificated private pilot and two passengers aboard 
the airplane were killed. The helicopter flight was a local sightseeing 
flight conducted under the provisions of 14 Code of Federal Regulations 
(CFR) Parts 135 and 136. The airplane flight was a personal flight 
conducted under the provisions of 14 CFR Part 91. The airplane departed 
Teterboro Airport (TEB), Teterboro, New Jersey, about 11:49, destined 
for Ocean City, New Jersey, and the helicopter lifted off from the West 
30th Street Heliport about 3 minutes later, at 11:52. Visual 
meteorological conditions prevailed and no flight plans were required 
or filed for either flight. However, the pilot of the airplane 
requested flight-following services from TEB air traffic control 
(ATC).\2\ Neither aircraft was equipped with a cockpit voice recorder 
or a flight data recorder, nor were they required to be installed. The 
accident occurred in a relatively complex airspace where Class B 
airspace meets the Hudson River Class B exclusion area.
---------------------------------------------------------------------------
    \1\ All times in this testimony are eastern daylight time and based 
on a 24-hour clock.
    \2\ The preliminary reports for this accident, ERA09MA447A and B, 
are available online at <http://www.ntsb.gov/ntsb/query.asp>.
---------------------------------------------------------------------------
New York Terminal Airspace
    The Federal Aviation Administration (FAA) has designated the area 
surrounding John F. Kennedy International Airport (JFK), Newark Liberty 
International Airport (EWR), and LaGuardia Airport (LGA) as Class B 
airspace. Class B airspace is intended to provide positive control of 
flight operations near the Nation's busiest airports and to separate 
aircraft operating under visual flight rules (VFR) from aircraft 
operating in the airport terminal area. According to 14 CFR 91.131, all 
aircraft operating within Class B airspace are required to obtain ATC 
clearance before entry and to comply with ATC instructions while 
operating within the airspace. Pilots who do not have ATC clearance to 
enter must remain outside the Class B boundaries. Part of the New York 
Class B airspace extends from the surface to 7,000 feet above mean sea 
level in 4- to 8-mile radiuses around JFK, EWR, and LGA. Some other 
parts of the Class B airspace begin at higher altitudes. This allows 
aircraft to arrive and depart from satellite airports, such as TEB, 
without obtaining Class B clearance. For example, the floor of the 
Class B airspace overlying TEB is 1,800 feet. Thus, separation between 
traffic at TEB and aircraft operating within the Class B airspace is 
maintained by requiring aircraft without Class B clearance to remain 
below 1,800 feet.
    The accident occurred in the Hudson River Class B exclusion area, 
which is a combination of Class E and Class G airspace \3\ that 
provides a passageway through the New York Class B airspace. The Hudson 
River Class B exclusion area permits aircraft to fly north and south 
along the Hudson River between, approximately, the George Washington 
Bridge to the north and the Verrazano Narrows Bridge to the south 
without authorization from air traffic controllers. The Hudson River 
Class B exclusion area extends from the surface of the Hudson River up 
to and including 1,100 feet above mean sea level.
---------------------------------------------------------------------------
    \3\ Class E and Class G airspace each allow pilots to operate under 
VFR without mandatory service from air traffic controllers. The main 
practical difference between Class E and Class G airspace is the 
minimum ceiling and visibility requirements for flight under VFR. The 
Hudson River Class B exclusion area is Class E airspace from 700 feet 
to 1,100 feet above mean sea level and Class G airspace below 700 feet.
---------------------------------------------------------------------------
    Prior to the accident, the FAA had established voluntary procedures 
for operating within the Hudson River Class B exclusion area that were 
designed to minimize the risk of collision. These procedures are 
described on the New York VFR Terminal Area Chart and the New York 
Helicopter Route Chart. They state that pilots operating within the 
Hudson River Class B exclusion area should fly at 140 knots or less; 
turn on position lights, anticollision lights, and landing lights; and 
self-announce their position on the common traffic advisory frequency 
(CTAF),\4\ 123.05 MHz. Another accepted procedure for helicopter 
operations, published in the New York Helicopter Route Chart, is for 
northbound helicopter flights to follow along the Manhattan shoreline, 
and for southbound flights to follow the New Jersey shoreline, 
providing lateral separation between opposite-direction traffic flows.
---------------------------------------------------------------------------
    \4\ CTAFs allow pilots to exchange traffic information while 
operating near airports without operating control towers. CTAF 
procedures may also be established in other circumstances where direct 
pilot-to-pilot communications will contribute to safety.
---------------------------------------------------------------------------
    Recent FAA traffic estimates indicate that over 200 aircraft a day 
pass through the Hudson River Class B exclusion area. The Hudson River 
Class B exclusion area and associated transition procedures have been 
in use for more than 30 years, and until the accident, the safety 
record for operations in the area had been good. The NTSB has no record 
of previous collisions between aircraft operating in the Hudson River 
Class B exclusion area. A review of the FAA Near-Midair Collision 
(NMAC) database and the National Aeronautics and Space Administration 
Aviation Safety Reporting System (ASRS) database revealed 11 reports of 
NMACs between aircraft in the area since 1990. Only one report was 
filed in the past 10 years. Although ASRS reporting is voluntary, the 
number of reports received is very low relative to the number of flight 
operations through the Hudson River Class B exclusion area.
Previous Recommendation Addressing New York Terminal Airspace
    The NTSB previously addressed the conduct of VFR flights in the New 
York Terminal Airspace following the investigation of the 2006 crash of 
a Cirrus Design SR20 into an apartment building in Manhattan. The 
aircraft, with two pilots onboard (one of whom was New York Yankees 
pitcher Cory Lidle), had departed TEB at about 14:29 on October 11, 
2006, operating under Part 91 with no flight plan filed. The pilots had 
acknowledged to ATC that the aircraft would stay out of the New York 
Class B airspace. After takeoff, the aircraft turned southeast and 
climbed to an altitude of about 600 to 800 feet mean sea level. When 
the flight reached the western shore of the Hudson River, it turned 
south, remaining over the river, then descended to 500 feet. The flight 
continued southbound over the Hudson River until abeam of the southern 
tip of Manhattan, at which point, the flight turned southwest. The 
aircraft flew around the Statue of Liberty, then headed northeast to 
fly over the East River. About a mile north of the Queensboro Bridge, 
the aircraft made a left turn to reverse its course. The aircraft 
impacted a 520-foot tall apartment building 333 feet above street 
level. The NTSB determined that the probable cause of the accident was 
the pilots' inadequate planning, judgment, and airmanship in the 
performance of a 180-degree turn maneuver inside the limited turning 
space over the East River.
    Two days following the accident, the FAA published Notice to Airmen 
(NOTAM) 6/3495 prohibiting fixed-wing operations (except amphibious 
fixed-wing aircraft landing or departing New York Skyports Inc. 
Seaplane Base) in the East River Class B exclusion area from the 
southwestern tip of Governors Island to the north tip of Roosevelt 
Island unless authorized and controlled by ATC. The NTSB strongly 
supported the FAA's quick response and issued a recommendation (A-07-
38) that FAA make the NOTAM permanent. In an update to the NTSB in 
early 2008, the FAA indicated that it was developing a rulemaking 
project for a redesign for the New York and New Jersey airspace, a 
rulemaking project it expected to take at least 2 years. Recommendation 
A-07-38 is classified ``Open--Acceptable Response.''

The Flights in the Hudson River Accident
    The pilot of the accident airplane contacted the clearance delivery 
controller in the ATC tower at TEB about 11:40:01, requesting departure 
clearance and VFR radar traffic advisory service en route to Ocean 
City, New Jersey, at 3,500 feet. The pilot's requested route and 
altitude required that the flight enter the Class B airspace overlying 
TEB. The clearance delivery controller issued the pilot a discrete 
transponder code. While the airplane was taxiing to the runway, the TEB 
ground/local controller offered the pilot the option of departing TEB 
over the river. The pilot elected to fly down the Hudson River, which 
necessitated eventual coordination with controllers at EWR for 
authorization to climb into the Class B airspace. Existing procedures 
did not require TEB controllers to coordinate for Class B clearance for 
the pilot, and the local controller did not do so.
    The accident airplane departed TEB about 11:49 and was issued a 
traffic advisory for a helicopter arriving at the airport. The pilot 
acknowledged the traffic call. The local controller instructed the 
pilot to remain at or below 1,100 feet, which is the ``top'' of the 
exclusion airspace in that area. The airplane flew southbound until the 
local controller instructed the pilot to turn left (southeast) and join 
the Hudson River. About 11:52:20, the pilot acknowledged an instruction 
from the TEB local controller to change frequencies and contact 
controllers at EWR. The pilot read back to the controller an incorrect 
frequency; ATC recordings do not indicate that the incorrect read-back 
was heard or corrected by any air traffic controller. A preliminary 
review of recorded ATC communications showed that the pilot did not 
contact EWR before the accident. We are reviewing ATC tapes for other 
frequencies to see if the pilot was attempting to contact EWR on the 
incorrect frequency. In any case, about 11:53:17, approximately the 
time of the accident, the TEB local controller contacted the EWR 
controller to ask about the airplane and was told that the pilot had 
not called. There are no known additional ATC contacts with the 
airplane.
    The accident helicopter departed from the West 30th Street 
Heliport, which is in the Hudson River Class B exclusion area, about 
11:52, for a 12-minute tour. The initial part of the tour was to be 
flown below Class B airspace, so the pilot was not required to contact 
ATC. Although the nature of any transmissions made by aircraft on the 
CTAF is not known because the CTAF is not recorded, a Liberty 
Helicopters pilot waiting to depart from the West 30th Street Heliport 
reported that the pilot of the accident helicopter made a position 
report on the CTAF just before the collision. The first radar target 
for the accident helicopter was detected by the FAA's EWR radar about 
11:52:27, when the helicopter was west of the heliport, approximately 
mid-river, and climbing through 400 feet. According to recorded radar 
data, the helicopter flew to the west side of the river and then turned 
south to follow the Hudson River. The accident helicopter continued 
climbing southbound until about 11:53:14, when the collision occurred 
at about 1,100 feet.

ATC Procedures
    After the accident airplane departed from TEB, the local controller 
instructed the pilot to remain at or below 1,100 feet and to turn east 
toward the Hudson River (to avoid the final approach course for runway 
22 at EWR). A review of radar data shows that the accident airplane was 
level at about 1,100 feet for about 2 minutes before the accident, and 
that, at the time the airplane turned toward the Hudson River, there 
were no apparent traffic conflicts that would have precluded the 
airplane from climbing into the Class B airspace. Because there was no 
coordination between TEB and EWR controllers regarding the pilot's 
request to climb to 3,500 feet, the airplane could not expeditiously 
enter the Class B airspace. Instead, the airplane continued toward the 
Hudson River Class B exclusion area at about 1,100 feet. About 
11:52:19, almost 4 minutes after departure, when the TEB local 
controller instructed the pilot to contact EWR ATC, the airplane was 
about 2 miles away from the point of collision with the helicopter.
    Aircraft operating in the Hudson River Class B exclusion area 
depend on CTAF reports to maintain traffic awareness. However, because 
the pilot of the accident airplane was in contact with TEB ATC awaiting 
further instructions and was then instructed to contact EWR, the pilot 
may not have been making and monitoring the CTAF position reports. 
Instead, the pilot likely expected to continue to receive flight-
following services from ATC. Making and monitoring CTAF reports while 
remaining in contact with ATC would have required the pilot to be 
actively transmitting and receiving on two different radios at the same 
time, which is especially difficult in a busy ATC environment such as 
the New York area. Even if the pilot had attempted it, his monitoring 
of CTAF would likely have been hindered by his simultaneous monitoring 
of ATC communications. Consequently, it is likely that the pilot did 
not hear any transmissions from the accident helicopter, including the 
helicopter pilot's self-announcement that the other Liberty Helicopters 
pilot reported hearing. In addition, the pilot was not advised to use 
the CTAF as he entered the Hudson River Class B exclusion area, nor 
were such advisories required.
    Before departure, the pilot of the airplane had requested radar 
traffic advisories and was advised of ``radar contact'' by TEB after 
departure, indicating that, workload permitting, the service was being 
provided. According to FAA Order 7110.65, Air Traffic Control, 
providing traffic advisories to VFR aircraft is an additional service 
that, as the FAA order states, ``is required when the work situation 
permits.'' After the initial post-departure traffic call, ATC did not 
advise the accident airplane pilot of potential conflicts with other 
aircraft ahead in the vicinity of the Hudson River Class B exclusion 
area. Because the first radar target for the accident helicopter was 
detected about 11:52:27, the helicopter was not yet visible on radar 
when the TEB local controller issued the frequency change to the 
airplane's pilot. Therefore, before the frequency change, the TEB local 
controller could not have detected the impending conflict between the 
accident airplane and the accident helicopter or issued a warning to 
the airplane pilot about the accident helicopter. However, radar had 
detected other aircraft in the vicinity of the Hudson River Class B 
exclusion area that were potential conflicts at that time. The TEB 
local controller did not advise the airplane pilot of the other traffic 
ahead. The EWR tower controller observed the existing traffic in the 
vicinity of the Hudson River Class B exclusion area and called the TEB 
local controller to ask that he instruct the airplane pilot to turn 
toward the southwest to resolve the situation. The call may have 
overlapped the pilot's acknowledgment of the radio frequency change 
instruction from the TEB local controller. The TEB controller did not 
hear the EWR controller's instruction clearly and requested that it be 
repeated. The TEB controller then attempted to contact the airplane, 
but the pilot did not respond. The collision occurred about 1 minute 
after the frequency change instruction and 26 seconds after the TEB 
local controller's last attempt to contact the pilot.
    Prior to the accident, there were no procedures or instructions 
directing controllers to prevent, where possible, aircraft from 
entering the Hudson River Class B exclusion area while remaining in 
communication with ATC or to ensure, traffic permitting, that aircraft 
requesting Class B clearances receive approval to climb before entering 
the Hudson River Class B exclusion area. Effective communication on the 
CTAF is a fundamental component of the safety procedures established 
for VFR operations in the Hudson River Class B exclusion area. The NTSB 
believes that New York area ATC facilities must account for the 
importance of CTAF communications and ensure that aircraft operating 
near the Hudson River Class B exclusion area are either cleared into 
Class B airspace before reaching the Hudson River Class B exclusion 
area or are directed to switch to the CTAF in time to engage in 
effective communications with other pilots operating in the Hudson 
River Class B exclusion area. Further, if circumstances require that an 
aircraft in communication with ATC enters the Hudson River Class B 
exclusion area, controllers should place a high priority on providing 
the pilot with timely traffic advisories and safety alerts, as required 
by FAA Order 7110.65, Air Traffic Control, because the pilot is less 
likely to be communicating on CTAF and receiving traffic information 
directly from other pilots.
    On the day of the accident, the TEB tower was staffed with five 
controllers. At the time of the accident, there were two controllers in 
the tower cab: one controller was working the ground control, local 
control, and arrival radar positions and also acting as the controller 
in charge of the facility; a second controller was working the flight 
data and clearance delivery position. The two other controllers were on 
a break, and the frontline manager had left the facility temporarily on 
a personal errand about 11:45. The local controller initiated a 
telephone conversation unrelated to his work about 11:50:31, about 2 
minutes after he cleared the accident airplane for takeoff. The 
conversation continued until 11:53:13.

NTSB Recommendations
    Based on the data collected thus far in the investigation, on 
August 27, 2009, the Safety Board issued five safety recommendations to 
the Federal Aviation Administration:

        Revise standard operating procedures for all air traffic 
        control (ATC) facilities, including those at Teterboro airport, 
        LaGuardia airport, and Newark Liberty International airport, 
        adjoining the Hudson River Class B exclusion area in the 
        following ways:

                a. establish procedures for coordination among ATC 
                facilities so that aircraft operating under visual 
                flight rules and requesting a route that would require 
                entry into Class B airspace receive ATC clearance to 
                enter the airspace as soon as traffic permits,

                b. require controllers to instruct pilots with whom 
                they are communicating and whose flight will operate in 
                the Hudson River Class B exclusion area to switch from 
                ATC communications to the common traffic advisory 
                frequency (CTAF) and to self-announce before entering 
                the area,

                c. add an advisory to the Automatic Terminal 
                Information Service broadcast, reminding pilots of the 
                need to use the CTAF while operating in the Hudson 
                River Class B exclusion area and to self-announce 
                before entering the area, and

                d. in any situation where, despite the above 
                procedures, controllers are in contact with an aircraft 
                operating within or approaching the Hudson River Class 
                B exclusion area, ensure that the pilot is provided 
                with traffic advisories and safety alerts at least 
                until exiting the area. (A-09-82)

                Brief all air traffic controllers and supervisors on 
                the air traffic control (ATC) performance deficiencies 
                evident in the circumstances of this accident and 
                emphasize the requirement to be attentive and 
                conscientious when performing ATC duties. (A-09-83)

                Amend 14 Code of Federal Regulations Part 93 to 
                establish a special flight rules area (SFRA) including 
                the Hudson River Class B exclusion area, the East River 
                Class B exclusion area, and the area surrounding Ellis 
                Island and the Statue of Liberty; define operational 
                procedures for use within the SFRA; and require that 
                pilots complete specific training on the SFRA 
                requirements before flight within the area. (A-09-84)

                As part of the special flight rules area procedures 
                requested in Safety Recommendation A-09-84, require 
                vertical separation between helicopters and airplanes 
                by requiring that helicopters operate at a lower 
                altitude than airplanes do, thus minimizing the effect 
                of performance differences between helicopters and 
                airplanes on the ability of pilots to see and avoid 
                other traffic. (A-09-85)

                Conduct a review of all Class B airspace to identify 
                any other airspace configurations where specific pilot 
                training and familiarization would improve safety, and, 
                as appropriate, develop special flight rules areas and 
                associated training for pilots operating within those 
                areas. (A-09-86).

    On September 2, 2009, the FAA announced plans to modify the 
airspace over the Hudson River. The NTSB will review the changes, once 
they are completed and published, and determine if they meet the intent 
of our recommendations.
    Mr. Chairman, this concludes my presentation, and I would be 
pleased to answer any questions.

    Senator Lautenberg. Now to Mr. Coyne.

            STATEMENT OF JAMES K. COYNE, PRESIDENT, 
            NATIONAL AIR TRANSPORTATION ASSOCIATION

    Mr. Coyne. Thank you very much, Mr. Chairman. I am James 
Coyne, the President of the National Air Transportation 
Association. NATA is a public policy group representing the 
interests of aviation businesses before Congress and Federal 
agencies and State governments. We represent over 2,000 member 
companies that own and operate and service aircraft and provide 
for the needs of the traveling public by offering services and 
products to aircraft operators and others such as fuel sales, 
aircraft maintenance, sales of aircraft parts, storage, rental, 
airline servicing, flight training, Part 135 on-demand air 
charter, fractional aircraft program management, and scheduled 
commuter operations in smaller aircraft. NATA member companies 
are a vital link in the aviation industry providing services to 
the general public, to airlines and the general aviation 
community.
    I am also a member of the Flight Safety Foundation's Board 
of Governors. The Flight Safety Foundation was founded 60 years 
ago to address the problem of how to solve safety issues. The 
founding members believed that the industry needed a neutral 
ground where competitors could work together to share 
information, ideas, and best practices. Today the Safety 
Foundation's membership is over 1,100 and crosses into all 
segments of the aviation industry.
    In addition, I am President of the Air Charter Safety 
Foundation, an initiative that was begun by NATA about 4 years 
ago, and I will discuss that in a little bit more detail.
    I am an active pilot, instrument-rated, ATP pilot, multi-
engine ratings with more than 35 years of flying experience and 
over 6,000 hours of flight time.
    While the tragic collision of two small aircraft over the 
Hudson River was devastating to all of us--and I should point 
out that the fixed-wing airplane departed from one of our 
member companies where it had just been fueled in Teterboro 
only a few minutes before the accident. So we were literally 
the last people to see that pilot and his passengers. It is 
especially painful for us whenever our customers and our 
colleagues in aviation suffer a tragedy like this. NATA remains 
concerned that the intense scrutiny, however, being placed on 
airspace in which general aviation operate in the New York area 
could lead to misrepresentation of the causes for this 
accident.
    The Hudson River corridor per se and Class B airspace in 
general is an area, as you point out, of significant 
congestion, but from what we can see of this particular 
accident, both of the pilots were essentially doing that which 
they had been instructed to do. They were following the 
regulations both for the Part 135 regulations and flight 
regulations that the helicopter pilot was expected to follow, 
and the Part 91 pilot was following the regulations and 
directions that had been given to him.
    Of course, airspace is complicated, but the information 
about this airspace is well known to pilots and the information 
about these two aircraft was well known to the air traffic 
controllers at the time.
    The sad thing was, of course, that the information about 
the impending accident was not available in the cockpit when 
the pilots needed it most sincerely.
    You have a technical background I know, Mr. Chairman. You 
understand the importance of NextGen and upgrading our modern 
air traffic control system, and there is no doubt that if 
NextGen had been in place at the time of this accident, that 
the information--and this is what is really most important--the 
information about where the planes were would be in the hands 
of the people who needed it most, the two pilots controlling 
those airplanes. But unfortunately, that information could not 
get into the cockpits at that time.
    I fly in and out of Teterboro regularly, I think as you do. 
In fact, we have met in your office and talked.
    Senator Lautenberg. In my civilian days, it was often.
    Mr. Coyne. Well, an occasional flight to Martha's Vineyard 
hopefully or something like that.
    But it is a wonderful airport that provides wonderful 
service to the greater New Jersey and--as you notice, I said 
``greater New Jersey'' metropolitan area, which is perhaps the 
appropriate way to say it.
    Several years ago, of course, there was a serious accident 
at Teterboro, and it involved an aircraft that did not 
adequately take off and went across the runway and collided 
with a building. Several people were seriously injured and 
killed.
    After that, we decided to create something called the 
``Teterboro Safety Initiative,'' which we launched with the 
cooperation of the FAA, with the Teterboro Airport Management, 
with the unions, with the controllers, with the Port Authority 
of New York, working very closely with the late Bill Dakota, 
who I am sure you knew well. And we came up with an initiative 
for Teterboro to train pilots to a much higher level of 
understanding of the complexities of that airspace.
    The most terrifying thing for a pilot is to go to an 
airspace or an airport that he has never been to before and 
deal with an awful lot of new things for the first time. This 
corridor along the Hudson River is one of those places. It is 
complex. For a pilot who is used to it, it is not complex. It 
is easy. For the helicopter pilot who was flying out day-in and 
day-out on the tours, it is a routine place to fly. But for 
many pilots coming there for the first time, it is complex. And 
we think that there is a need in addition to the 
recommendations coming from NTSB and the FAA, for enhanced 
training for the pilots, especially those that are coming to 
that environment, whether they are just flying to Teterboro or 
to Newark or to the river approach, for the first time.
    So that is why we have come up with a product. We are now 
providing free to any aviator in this country, specific 
training for Teterboro Airport online for anybody who wants to 
go onto the Web and get the wisdom of experienced pilots, 
experienced controllers and others who know the types of 
mistakes that pilots and others can do in an unfamiliar area.
    We have just begun this past week this same service for 
Newark Airport, and we will be producing by the end of the 
year, a brand new Newark Airport online pilot briefing program, 
so that any aircraft owner or operator coming into that airport 
for the first time will get far more advanced training than 
they could get just by looking at approach plates and things 
like that.
    So, we think that this is the right way to go and we would 
hope that this same kind of training could be made available 
for pilots flying into the river corridor for the first time, 
so that before they go there, they can go online and learn 
everything that they can about this very special, important 
piece of airspace.
    Now, of course, in your comments, you raised the question 
of Part 135 safety, and there is literally nobody you will ever 
meet, Mr. Chairman, who is more interested in advancing Part 
135 on-demand safety than I, and hopefully you, as well. We 
have created the Air Charter Safety Foundation. We have 
launched a program of auditing charter operators across the 
country, something that has never been done before until this 
past year. We are doing much more advanced training for pilots, 
and we are working closely with the FAA to get the ARC 
recommendations, which you alluded to, which we want to see put 
into place as soon as possible and acted upon.
    At the same time, we have met very closely with NTSB and 
their Chairman and hope to implement these air charter safety 
recommendations. But in this particular case, I think it is 
clear that safety has been good.
    [The prepared statement of Mr. Coyne follows:]

           Prepared Statement of James K. Coyne, President, 
                National Air Transportation Association

    Chairman Dorgan, Ranking Member DeMint and members of the 
Subcommittee:
    Thank you for this opportunity to appear before you today to 
discuss the Hudson River midair collision and safety of air operations 
in congested airspace.
    My name is James K. Coyne, and I am President of the National Air 
Transportation Association (NATA). NATA, the voice of aviation 
business, is the public policy group representing the interests of 
aviation businesses before the Congress, Federal agencies and state 
governments. NATA's over 2,000 member companies own, operate and 
service aircraft and provide for the needs of the traveling public by 
offering services and products to aircraft operators and others such as 
fuel sales, aircraft maintenance, parts sales, storage, rental, airline 
servicing, flight training, Part 135 on-demand air charter, fractional 
aircraft program management and scheduled commuter operations in 
smaller aircraft. NATA members are a vital link in the aviation 
industry providing services to the general public, airlines, general 
aviation and the military.
    I am also a member of the Flight Safety Foundation's Board of 
Governors. The Flight Safety Foundation was founded 60 years ago to 
address the problem of how to solve safety issues. The founding members 
believed that the industry needed a neutral ground where competitors 
could work together to share information, ideas, and best practices for 
safety. Today, the Flight Safety Foundation's membership is over 1,100 
and crosses into all segments of the aviation industry. The Flight 
Safety Foundation brings unions and management, regulators and 
operators, and rival manufacturers to the table to work together to 
find solutions. The foundation occupies a unique position among the 
many organizations that strive to improve flight safety standards and 
practices throughout the world. Effectiveness in bridging cultural and 
political differences in the common cause of safety has earned the 
foundation worldwide respect.
    In addition, I am the President of the Air Charter Safety 
Foundation, an initiative that I will discuss in more detail later.
    I also appear today as an active pilot with instrument and multi-
engine ratings and more than 30 years of experience flying who is 
acutely aware of many of the ongoing issues with uncontrolled airspace 
corridors.
    While the tragic collision of two small aircraft over the Hudson 
River was devastating, it is important to note that these occurrences 
are extremely rare. NATA remains concerned with the intense scrutiny 
being placed on the airspace in which general aviation aircraft operate 
in the New York City area. NATA would like to make the following points 
regarding the Hudson River accident and Class B airspace.
Hudson River ``Corridor'' and Class B Airspace
    John F. Kennedy International Airport (JFK), Newark Liberty 
International Airport (EWR), and LaGuardia Airport (LGA) are designated 
as Class B airspace by the Federal Aviation Administration (FAA). Class 
B airspace is intended to provide positive control of flight operations 
near the Nation's busiest airports and to separate aircraft operating 
under visual flight rules (VFR) from aircraft operating in the airport 
terminal area. Seventy-eight percent of all general aviation flights 
operate under VFR, without radar control, which makes pilots ultimately 
responsible for seeing and avoiding other aircraft. Flight under VFR is 
only permissible when there is sufficient visibility and clearance from 
clouds.
    Pilots may not enter Class B airspace without explicit permission 
from air traffic control (ATC). Although general aviation VFR flights 
may request entry to the Class B airspace, such requests are often 
denied by ATC for various reasons, forcing most VFR traffic in the New 
York area into the same compact airspace known as the ``Class B 
exclusion airspace.''
    The FAA estimated that 200 aircraft fly through the Hudson River 
Class B exclusion area each day. In addition, the Hudson River Class B 
exclusion area and associated transition procedures have been in use 
for more than 30 years, and the safety record for operations in the 
area has been good, according to the National Transportation Safety 
Board (NTSB). The NTSB has no record of previous collisions between 
aircraft operating in the Hudson River Class B exclusion area.
NTSB and FAA Recommendations on Hudson River Corridor
    The National Transportation Safety Board has already issued 
recommendations to the FAA for modifications to how aircraft are 
operated and managed by ATC in the areas. NATA agrees with the 
recommendations of the NTSB to revise ATC procedures and the manner in 
which general aviation traffic is managed in the Hudson River Class B 
exclusion area.
    In addition, the FAA has announced preliminary information on 
regulatory changes to the airspace that generally coincide with the 
NTSB recommendations. After reviewing the information made public by 
the FAA, NATA supports the agency's plan to enhance safety for the NY/
NJ airspace in so much as the plan will include restructuring the 
airspace, establishing pilot operating rules, creating new entry points 
into the Hudson River airspace from Teterboro, standardizing New York 
area charts and developing new training for pilots, air traffic 
controllers and businesses that operate helicopters and aircraft in the 
area. One of the most significant changes would be dividing the 
airspace into altitude corridors that separate aircraft flying over the 
river from those operating to and from local helicopter or seaplane 
bases.

Modernization
    As previously stated, the Hudson River Class B exclusion area and 
associated transition procedures have been in use for more than 30 
years, and according to the NTSB, the safety record for operations in 
the area have been good. However, with air traffic reaching record 
levels in both the commercial airline and general aviation sector, NATA 
believes that modernizing the Nation's air traffic control system is 
essential to keeping this vital transportation sector of our economy 
strong. In doing so, it is important to accelerate the implementation 
of technologies such as Automatic Dependent Surveillance-Broadcast 
(ADS-B) and ensure those technologies availability to general aviation 
operators during the upgrade to the Next Generation Air Traffic Control 
system.
    ADS-B is the advanced surveillance technology that combines a 
satellite positioning service, aircraft avionics, and ground 
infrastructure to enable more accurate transmission of information 
between aircraft and Air Traffic Control (ATC). ADS-B uses information 
from a position service, e.g., Global Positioning System (GPS), to 
broadcast the aircraft's location, thereby making this information more 
timely and accurate than the information provided by the conventional 
radar system. ADS-B can also provide the platform for aircraft to 
receive various types of information, including ADS-B transmissions 
from other similarly equipped aircraft or vehicles. ADS-B is automatic 
because no external interrogation is required, but is ``dependent'' 
because it relies on onboard position sources and onboard broadcast 
transmission systems to provide surveillance information to ATC and 
ultimately to other users.
    While the FAA claims that VFR is the best approach for such 
airspace as the Hudson River Corridor, every general aviation operator 
should have the ability to purchase and receive radar positioning via 
satellite. 21st century technology that is available in the U.S. should 
be made readily available for general aviation aircraft.
    Although the FAA supports modernizing its aging ground-based radar 
infrastructure with satellite-based navigation onboard aircraft, the 
agency isn't leading the charge to move forward with electronic mediums 
that general aviation aircraft can access before a complete overhaul of 
the National Airspace System (NAS) is complete.
    Congress should also work with the FAA to make Teterboro Airport 
(TEB) a priority in several technological improvements the agency is 
implementing at airports throughout the country. For example, the 
implementation of a new type of approach system, known as RNAV, would 
allow aircraft a more direct approach into the airport, avoiding 
lengthy circling above the highly populated surrounding.

Teterboro Airport Flight Crew Briefing
    Because one of the aircraft involved in this accident departed from 
TEB, the safety of the airport has come under investigation. NTSB 
records show that over the last several years nearly every event 
investigated was related to incursions.
    Recognizing this concerning trend, in 2008 TEB became the first in 
the Nation to implement a new airport-specific flight crew training 
program, produced by NATA's Safety 1st program. Funded by a grant from 
the FAA, the NATA Safety 1st Teterboro Airport Flight Crew Briefing is 
a customized online training tool that gives pilots and other flight 
crew members flying into and out of TEB access to critical safety 
information about the airport, including its location, layout, 
operations, regulations, and safety and security procedures. With 
superb clarity and graphics, the Safety 1st briefing presents pilots 
views of specific hot spots, scenarios for common pilot errors, 
aircraft lighting configurations, take-off procedures, and other 
information that is critical to safe aircraft operations at the 
airport.
    Since its implementation in June 2008, the Teterboro Airport Flight 
Crew Briefing website has had more than 220,000 visitors. More 
importantly, there have been no runway incursions at TEB in 2009, which 
we believe can be partially attributed to the briefing. As a result of 
the success of the Teterboro Briefing, NATA is developing a similar 
tool for Newark Liberty International Airport that will be available by 
the end of this year. This project is being funded by the Port 
Authority of New York and New Jersey.

Air Charter Safety Foundation
    I also have the privilege of serving as President of the Air 
Charter Safety Foundation. The Air Charter Safety Foundation (ACSF) is 
a non-profit organization dedicated to enhancing the safety and 
security of air charter and shared aircraft ownership programs in the 
United States and worldwide. Through research, collaboration and 
education, the ACSF advances charter industry standards and best 
practices, promulgates safety, security and service benchmarks, and 
promotes the universal acceptance of safety management systems. The 
ACSF also provides accurate and objective information about air charter 
providers as one of the most important and versatile public 
transportation resources. Membership in the ACSF primarily includes 
Part 135 certificate holders, with the balance to include OEMs, 
brokers, insurers, customers, airports, and safety professionals. Since 
inception of the organization in June 2007, the ACSF has already made 
great strides in improving the safety of operations.

Industry Audit Standard
    Earlier this year, the ACSF launched an audit program, the ACSF 
Industry Audit Standard. The Industry Audit Standard is a revolutionary 
program built from the ground up by the ACSF to set the standard for 
the independent evaluation of an air charter operator's and/or shared 
ownership company's safety and regulatory compliance. The ACSF Industry 
Audit Standard has been developed with the input and guidance of 
leading safety auditors, charter operators, shared aircraft ownership 
companies and charter consumers.
    The ACSF Industry Audit Standard is the only audit program that 
comprehensively evaluates both an operator's Safety Management System 
(SMS) and its Part 135 regulatory compliance. With the deployment of 
the ACSF Industry Audit Standard, the charter consumer can be assured 
that audited and registered operators are compliant with the highest 
standards of safety and compliance. The ACSF agrees with the NTSB that 
the adoption of SMS is a key goal to improving safety. It is why the 
Industry Audit Standard requires operators to adopt, implement and show 
continuous safety management improvement. Operators and charter 
consumers are enthusiastic about this independent evaluation. By the 
end of the year, we will have completed 25 audits, including some of 
the largest and most active air charter operators in the country.

AVSIS
    The ACSF has also released a revolutionary safety event reporting 
and tracking system known as AVSIS or Aviation Safety Information 
System. AVSIS is targeted specifically to the on-demand air charter and 
shared aircraft ownership program industries. This powerful software 
program collects detailed safety event data for analysis, response 
deployment and success measurement, and provides a tool for accounting 
for the cost savings realized by interventions.
    To encourage the wide-spread use of this safety-enhancing tool, the 
ACSF has made the program available to all Part 135 on-demand operators 
and Part 91K fractional program managers at no cost. Using AVSIS, or 
similar tools, to collect safety event information is critical to 
safety management system development and can also serve as the 
foundation for an FAA Aviation Safety Action Program (ASAP).

Safety Symposium
    The ACSF also hosts an annual Air Charter Safety Symposium. The 
symposium focuses on academic and scientific research pertaining to 
aviation safety. The event brings together the leaders of on-demand and 
fractional ownership operators to learn about new safety programs and 
emerging safety concerns.

Air Charter Data
    The ACSF has initiated a new effort to improve the activity and 
accident data available in order to analyze Part 135 safety more 
accurately. A program is being established to more closely collect, 
analyze and report on Part 135 on-demand accidents and incidents. 
Today, the industry's safety record is summed up by a single, all 
encompassing analysis. But, the air charter industry comprises a wide-
variety of aircraft, with mission profiles that are almost too numerous 
to name, including helicopter EMS and off-shore work, single-engine 
piston-powered tour operations, just-in-time cargo carriers, and long-
range international passenger-carrying turbojets, just to list a few 
mission profiles.
    This variation presents a unique challenge when attempting to draw 
safety conclusions. It is incredibly difficult to identify safety 
issues, provide targeted recommendations and then measure the success 
of mitigations if you can't determine the safety record for each of the 
distinct aircraft types or operational categories.
    The ACSF is committed to improving data collection and safety 
analysis for the Part 135 on-demand air charter industry. The ACSF 
believes that industry and government must work together to develop 
enhanced data collection tools that will permit the NTSB to develop a 
far clearer picture of the industry than is available today.

Conclusion
    NATA appreciates the efforts of both the NTSB and the FAA to 
produce thoughtful and targeted airspace, ATC and operational reforms 
to enhance the safety margin for operations within the Hudson River 
Class B exclusion.
    Further, we believe that the adoption of new technologies for 
airspace management will significantly impact safety and efficiency in 
the national airspace system.
    Finally, the efforts of NATA and the Air Charter Safety Foundation 
to improve upon safety and offer unique training, tracking and system 
safety programs are possible only because of the significant efforts 
and commitment to safety of the operating community. We are proud to 
recognize their work, and our industry looks forward to additional 
government-industry collaborative programs that can have meaningful 
impacts on safety.
    Thank you for the opportunity to testify, and I will be happy to 
answer any questions you may have.

    Senator Dorgan. Thank you very much. Are you finished? 
Thank you.
    Mr. Kragh?

 STATEMENT OF EDWARD KRAGH, CERTIFIED PROFESSIONAL CONTROLLER, 
        ADJUNCT TO FAA NY VFR AIRSPACE TASK FORCE, NATCA

    Mr. Kragh. Senator Lautenberg, good afternoon. Thanks for 
allowing me to appear before you today. My name is Edward 
Kragh. I have been an Air Traffic Controller for 22 years, and 
I have been assigned to Newark Airport for 16 years.
    I would like to, on behalf of the National Air Traffic 
Controllers Association, NATCA, offer my condolences to the 
family members of those who perished in this accident on August 
8. It is a matter of personal anguish, having sought out so 
many loopholes in safety procedures, that myself and the 
colleagues I have been working closely with were not able to 
see some of the flawed procedures that might have contributed 
to this on that day.
    But I am here today as NATCA's representative on the FAA's 
New York VFR Airspace Task Force. We were charged with 
examining the procedures in airspace surrounding Manhattan in 
order to recommend changes that would help make the airspace 
safer. My role in that task force was to serve as a subject-
matter expert on air traffic control procedures and airspace. 
The FAA invited NATCA to be a part of the Task Force and worked 
collaboratively with the union throughout, and it is our hope 
that the agency will continue to follow through with its 
commitment to include us in the completion of this project and 
any future changes.
    The August 8 incident occurred under visual flight rules 
outside of Class Bravo airspace in the Class B Exclusion 
Corridor, what we call the exclusion, during a handoff between 
air traffic control facilities. Aircraft in Class Bravo 
airspace are permitted to use VFR in clear weather but 
separation in Class Bravo airspace remains the controller's 
responsibility. No aircraft is permitted to enter Class B 
without first receiving a clearance from ATC, and once inside, 
pilots are required to then closely follow air traffic control 
procedures.
    In the exclusion, VFR aircraft are permitted to fly without 
being required to communicate with air traffic control. The 
exclusion is Class G, or uncontrolled airspace. As such, air 
traffic controllers do not have jurisdiction over aircraft in 
that airspace, and the burden of separation there is entirely 
on pilots. Pilots flying Class G airspace are urged to monitor 
and broadcast their positions over the common frequency and 
they are expected to do so in order to effectively coordinate 
the use of the airspace and uncontrolled runways.
    Clearance from air traffic control is required to enter and 
operate within Class B. Under the current procedures, Teterboro 
controllers do not have the authority to climb VFR aircraft 
into Class B airspace, and therefore, that transition into 
Class B requires a handoff of control from Teterboro to Newark, 
and when the Newark controller accepts that handoff, he climbs 
the VFR aircraft into Class B. If he is unable to accept the 
handoff, the aircraft must remain outside Class B airspace 
until receiving air traffic control clearance.
    On August 8, the Teterboro controller initiated a timely 
handoff, which the Newark controller accepted. The Newark 
controller was expecting radio contact from the Piper, which 
unfortunately never came. Although controllers at both 
Teterboro and Newark attempted to reestablish radio 
communication with the pilot, they were unable to contact him. 
At the time of the collision, the pilot was not in 
communication with air traffic control at either Teterboro or 
Newark.
    Unfortunately, there has been a great rush to judgment 
regarding the underlying causes of the August 8 tragedy. I 
would note that, Chairman Dorgan, and also Mr. Hart, stated 
that the NTSB has not yet completed its investigation into the 
matter. However, the controllers on duty did utilize the 
procedures that they had been trained to use which were 
required by FAA orders to adhere to. The first day that the VFR 
Task Force met, it was unanimously agreed upon that those 
procedures, the current procedures, were flawed and that under 
those flawed procedures, the August 8 accident could not have 
been prevented.
    Since the accident, a number of elected officials have 
advocated for full control of the airspace around Manhattan, in 
other words, eliminate the Class Bravo exclusion and require 
that all aircraft flying in this region be under the direction 
of air traffic control. NATCA and the Task Force recognize that 
this drastic change would require significant resources because 
present infrastructure is insufficient to handle these changes 
and there are not enough controllers to handle the increased 
workload that would result. The geography of the area with 
densely packed skyscrapers prevents effective radar and radio 
coverage. You may recall that when my colleague, Patrick 
Hartin, testified before Congress earlier this year, he 
described losing radio contact and radar coverage with U.S. Air 
flight 1549 as that aircraft lost altitude and eventually 
landed safely in the Hudson. Additional radar and radio sights 
would be a necessity to safely provide ATC services in the 
exclusion.
    The FAA's Task Force recommended several changes to 
training, procedures, and airspace structure. The union 
supports these recommendations, and we agree that their 
implementation will make this historically safe corridor even 
safer. However, like the Task Force, we recognize that further 
analysis is required before the recommendations can be 
implemented. For instance, we agree with the recommendation 
that encourages pilots to transition the Hudson using the Class 
B airspace above the exclusion so they are under ATC control, 
but an influx of VFR aircraft into Class B airspace may 
significantly increase controller workload and generate a need 
for increased staffing to meet the increased demands on these 
positions.
    Last, the FAA and air traffic controllers work best when we 
work together. I would like to divert here and just say that I 
find the Task Force was the model, for me in my career, of 
cooperation between the union and the agency, and I implore the 
agency to continue to use this approach on behalf of the safety 
of the flying public.
    That concludes my testimony. I look forward to answering 
any questions you may have.
    [The prepared statement of Mr. Kragh follows:]

Prepared Statement of Edward Kragh, Certified Professional Controller, 
            Adjunct to FAA NY VFR Airspace Task Force, NATCA

    The National Air Traffic Controllers Association (NATCA) is the 
exclusive representative of more than 15,000 air traffic controllers 
serving the Federal Aviation Administration (FAA), the Department of 
Defense and the private sector. In addition, NATCA represents 
approximately 1,200 FAA engineers, 600 traffic management coordinators, 
500 aircraft certification professionals, agency operational support 
staff, regional personnel from FAA logistics, budget, finance and 
computer specialist divisions, and agency occupational health 
specialists, nurses and medical program specialists. NATCA's mission is 
to preserve, promote and improve the safety of air travel within the 
United States, and to serve as an advocate for air traffic controllers 
and other aviation safety professionals. NATCA has a long history of 
working together with the NTSB, other government agencies and aviation 
industry experts to make the National Airspace System (NAS) the safest 
in the world.

August 8, 2009: Aftermath
    On August 8, 2009, a Eurocopter AS350 helicopter collided with a 
Piper PA-32R over the Hudson River. Nine people died in the collision. 
This accident and loss of life has caused many aviation safety experts, 
including NATCA, to examine the circumstances surrounding the incident 
and search for ways to prevent the situation from repeating itself in 
the future. To this end, NATCA was an active participant in the New 
York Airspace Task Force which was chartered by the FAA in response to 
this incident in order to recommend safety enhancements for the 
affected airspace.
    The incident occurred under a particular set of aviation rules and 
procedures; both aircraft were operating under Visual Flight Rules 
(VFR) in the Class B Exclusion Corridor, and the incident occurred in 
the midst of a handoff between air traffic control facilities. Although 
we believe that procedures were properly adhered to, the incident 
forces us to examine the procedures themselves so that we may prevent 
future incidents of this type. As an organization that prides itself on 
its air traffic control expertise, NATCA has examined and will testify 
about several aspects of aviation operations and procedures in effect 
at the time of the incident.

Visual Flight Rules: See and Avoid
    Both the aircraft involved in the August 8 incident were operating 
under Visual Flight Rules (VFR). VFR rules are a set of specifications 
governing the operation of aircraft under clear meteorological 
conditions. The basic premise of VFR is that pilots maintain a safe 
distance from terrain and other aircraft using a simple ``see-and-
avoid'' standard.

        Conduct of VFR Flight: In the conduct of VFR flight, the 
        prevention of collisions (safe separation from other aircraft) 
        is solely the responsibility of the pilot-in-command (PIC) to 
        see and avoid.\1\
---------------------------------------------------------------------------
    \1\ FAA Order 8900.1 Flight Standards Information Management System 
Volume IV: Aircraft Equipment on Operational Authorization, Chapter 1 
Air Navigation Communication and Surveillance.

    A pilot choosing to operate under VFR has a variety of tools at his 
disposal to assist him in maintaining situational awareness. Perhaps 
the most important of those tools is the Common Traffic Advisory 
Frequency (CTAF). Using CTAF, pilots communicate via two-way radio to 
announce their position and intentions to other pilots in order avoid 
conflict.
    Air Traffic Control flight following can be another tool for VFR 
pilots. While the onus of separation remains on the pilot, an Air 
Traffic Controller can help the pilot to see and avoid (See section on 
flight following for more information). In congested VFR airspace like 
the Hudson River corridor, communication over CTAF is considered 
preferable to communication with air traffic control. The high volume 
of VFR traffic combined with the unreliability of Radar coverage in the 
area makes CTAF the more effective option.

Seeing and Avoiding: August 8, 2009
    The incident on August 8 was an example of one of the most common 
types of VFR incidents: a high-wing, low-wing collision. A Piper 32A 
has a low-wing design; the wings are positioned low relative to the 
fuselage, making it difficult for the pilot to see aircraft flying at a 
lower altitude. Conversely, helicopter rotors are positioned above the 
fuselage, making it more difficult for the pilot to see aircraft flying 
above. Therefore, if a helicopter flies below a Piper and ascends, each 
aircraft may be in the other's blind spot.
    This situation was a tragic illustration of the limitations of see-
and-avoid separation. Simply put, if pilots are unable to see 
approaching aircraft it is extremely difficult to avoid them. Tools 
like CTAF can save lives in these cases; they can make a pilot aware of 
hazards outside of his immediate ability to see. In congested corridors 
like the one in which the incident occurred pilots should be 
particularly cognizant of the availability of CTAF and be required to 
monitor that frequency and broadcast their position and intentions.

Airspace Classes
    As previously stated, both of the aircraft involved were operating 
under VFR, but the specific procedures governing proper utilization of 
VFR are not fixed. They vary depending on the class of airspace in 
which the aircraft is operating. The FAA breaks the National Airspace 
System (NAS) into different classes of airspace; Classes A, B, C, D, 
and E are all designations of controlled airspace, and Class G is 
uncontrolled (Class F does not exist in domestic airspace). These 
classes of airspace differ in the rules that govern them, the 
obligations of air traffic controllers, the responsibility of pilots, 
and the flexibility of aircraft operation.
Figure i \2\
---------------------------------------------------------------------------
    \2\ Federal Aviation Administration Aeronautical Information 
Manual: Official Guide to Basic Flight Information and ATC Procedures 
2008 (with changes for 2009). Figure 3-2-1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The most stringent rules apply to Class A, the airspace typically 
designated from 18,000 ft above Mean Sea Level (MSL) to Flight Level 
600. All aircraft operating in Class A airspace must utilize Instrument 
Flight Rules (IFR); pilots must be equipped and trained to rely on 
their instruments for navigational purposes. It is the responsibility 
of air traffic controllers to maintain separation between aircraft in 
Class A airspace.
    The next most stringent class is Class B, which typically surrounds 
the Nation's largest airports. The main purpose of Class B airspace is 
to protect the area around a major airport so that larger passenger 
aircraft can operate safely. As such, aircraft in Class B airspace are 
permitted to use VFR in clear meteorological conditions, but it remains 
the controller's responsibility to ensure separation according to FAA 
regulations. No aircraft is permitted to enter Class B airspace without 
first receiving a clearance from air traffic control. Once inside, 
pilots are required to closely follow air traffic control instructions.
    In airspace Classes C, D and E, air traffic controllers are 
responsible for maintaining separation between IFR aircraft, but VFR 
aircraft are allowed to freely travel through the airspace without 
receiving clearances from air traffic control. In these cases, it is 
the VFR pilots' responsibility to maintain separation by utilizing the 
see-and-avoid method that is standard for VFR.
    Class G, or uncontrolled airspace, operates entirely according to 
VFR standards. Air traffic controllers do not have jurisdiction over 
aircraft operating in Class G airspace, and the burden of separation is 
entirely on the pilots. Pilots flying in Class G airspace are urged to 
monitor and broadcast their position over CTAF in order to effectively 
coordinate use of airspace and uncontrolled runways.

Class B Exclusion Areas
    Class B airspace is designed to protect large passenger aircraft in 
the areas surrounding major airports by providing positive air traffic 
control separation. However, many of these areas also have a high 
volume of VFR traffic. As a result, VFR aircraft would have had to fly 
all the way around this Class B airspace, as it would be difficult for 
an air traffic controller to safely handle such a high volume of VFR 
traffic in addition to the IFR traffic that is their first-duty 
priority without imposing restrictions on the flow of traffic.
    Rather than require these VFR users to travel all the way around 
the Class B airspace, the FAA implemented an alternative in several 
metropolitan areas including New York, Los Angeles and San Diego. In 
these areas there is a small corridor carved out of the Class B 
airspace where VFR aircraft are permitted to fly without communicating 
with Air Traffic Control. These corridors are considered Class G or 
uncontrolled airspace. VFR pilots who wish to coordinate with air 
traffic control may still request permission to enter Class B airspace.
    The Aeronautical Information Manual (AIM) advises pilots in these 
corridors as follows: ``Pilots operating in VFR corridors are urged to 
use [the CTAF frequency] for the exchange of aircraft position 
information.'' Pilots are therefore expected to communicate and 
coordinate with other pilots in order to maintain self-separation. 
Pilots monitoring that frequency are not in contact with air traffic 
control and therefore do not receive flight following services.

Flight Following
    VFR pilots who are operating in controlled airspace may request 
flight following service. According to the Air Traffic Control Order JO 
7110.65S, the manual for all air traffic control operations and 
procedures, Radar Flight Following is defined as follows:

        Radar Flight Following--The observation of the progress of 
        radar identified aircraft, whose primary navigation is being 
        provided by the pilot, wherein the controller retains and 
        correlates the aircraft identity with the appropriate target or 
        target symbol displayed on the radar scope.

    An aircraft operating under Visual Flight Rules (VFR) appears on a 
controller's radar scope with minimal information. Essentially, the 
controller knows only that there is a VFR aircraft present and its 
altitude (if the aircraft is properly equipped). He does not know 
aircraft type, call sign, or flight plan. When a pilot requests flight 
following, the pilot provides that additional information to the 
controller, who then enters the flight data. The controller has his 
computer automatically generate an identifier, which he instructs the 
pilot to enter into his transponder--enabling a data block to appear on 
the scope with all of the relevant information. This simple tracking 
assists in the event that search and rescue services are needed.
    If a pilot operating in Airspace Classes C, D or E requests flight 
following, the controller will provide basic radar service to the VFR 
pilot, workload permitting. According to the JO 7110.65S:

        Basic radar services for VFR aircraft shall include:

                1. Safety Alerts

                2. Traffic Advisories

                3. Limited radar vectoring when requested by the pilot.

                4. Sequencing at locations where procedures have been 
                established for this purpose and/or when covered by a 
                LOA [letter of agreement].

    These services can only be performed if the pilot continues to 
monitor the appropriate air traffic control frequency. Under these 
circumstances, the controller does not assume responsibility for 
ensuring separation, nor does he give instructions to the pilot. He 
simply acts as an ``eye in the sky'' providing surveillance and 
advisories, workload permitting. It remains the pilot's responsibility 
to maintain separation under VFR. A controller's first-duty priority is 
to the aircraft receiving full radar service. A controller must only 
provide flight following service to VFR pilots if his workload permits
    Flight following in Class B is markedly different from that in 
other airspace classes. An air traffic control clearance is required to 
enter and operate within Class B airspace. Therefore, when a pilot 
requests flight following from a controller responsible for Class B 
airspace, it is understood that they are requesting permission to enter 
the airspace, and that, if granted, they will be provided with full 
radar service until they leave that airspace. The controller will only 
grant the clearance to enter the Class B airspace if his workload 
permits.

ATC Service for VFR Aircraft: Teterboro (TEB)
    An aircraft departing TEB flies through Class D airspace. The AIM 
describes the procedural requirements for aircraft departing an airport 
with an operating control tower in Class D airspace as follows:

        Two-way radio communications must be established and maintained 
        with the control tower, and thereafter as instructed by ATC 
        while operating in the Class D airspace.

    The AIM goes on to say that ``No separation services are provided 
to VFR aircraft,'' although a pilot may request flight following 
services.
    Because TEB is located in such close proximity to the larger New 
York Area Airports that service passenger airlines, the Class D 
airspace is located immediately adjacent to Class B airspace controlled 
by Newark (EWR) and the Class B Exclusion Corridor along the Hudson 
River. An aircraft departing from TEB and heading in the direction of 
the Hudson River therefore has the option of entering uncontrolled 
airspace or requesting to enter Class B. Controllers at TEB do not have 
the authority to climb VFR aircraft into the EWR Class B airspace; only 
EWR controllers can give them such permission. Therefore, the 
transition into Class B airspace requires a handoff of control from TEB 
to EWR.

ATC Service for VFR Aircraft: Newark (EWR)
    If a pilot leaving TEB airspace wishes to remain in communication 
with air traffic control as he continues southwest along the Hudson 
River, control must be transferred to EWR. If the EWR controller 
accepts the handoff, he will climb the VFR aircraft into Class B; if he 
does not accept the handoff, the aircraft must remain outside Class B 
airspace and utilize the Exclusion Corridor.
    In EWR there are several different air traffic control positions 
responsible for different aspects of the aviation operation around the 
airport. These positions include a ground controller responsible for 
taxiing to the runways, a local controller responsible for take-off and 
landing, and a Class B Airspace (also known as Terminal Control Area) 
Controller.
    The Class B Airspace controller is responsible for the VFR aircraft 
traversing Newark's Airspace, including those flying in the Class B 
airspace above the exclusion zone. Unlike the local controller who 
works mostly with large passenger aircraft, the Class B Airspace 
controller is responsible mainly for helicopters, small fixed-wing 
planes, and occasional military aircraft. Part of his job is to 
coordinate airspace usage with the local controller in order to 
maintain safe separation as he guides VFR aircraft through designated 
VFR routes in the Class B airspace.

Handoff Procedure
    A handoff occurs prior to an aircraft crossing an airspace boundary 
when control of that aircraft must be transferred from one air traffic 
controller to another. It consists of a radar transfer and a 
communications transfer. In most cases, the radar transfer occurs via 
Automated Information Transfer (AIT). For the purpose of this 
description, Controller 1 will refer to the controller in control at 
the beginning of the handoff and Controller 2 will refer to the 
controller responsible at the end of the handoff.
    Each air traffic control position has a position symbol, a letter 
that appears superimposed on the radar target to indicate which 
controller is responsible. The TEB position symbol is J and the EWR 
position symbol is B (See Figure ii).
Figure ii

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    When an aircraft is approaching an airspace boundary, Controller 1 
initiates a radar handoff by pressing a button on his console. By 
pressing that button, Controller 1 causes a data block to flash on the 
scope of Controller 2. Because of this, initiating a radar handoff is 
colloquially referred to as ``flashing'' by controllers.
    As Controller 1 ``flashes'' the aircraft to Controller 2, 
Controller 2's position symbol appears in the second line of the data 
block. Controller 1 remains responsible for the aircraft, but the 
presence of this symbol means that the handoff has been initiated.
Figure iii

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Controller 2 sees the flashing data block and hits ``Enter'' on his 
keypad to accept the transfer, effectively completing the radar 
handoff. Controller 2 has acknowledged that he sees the aircraft, its 
identifier, altitude, and other relevant data and accepts 
responsibility. By hitting enter, Controller 2 causes the corresponding 
data block to flash on Controller 1's console, attracting Controller 
1's attention. At this point, Controller 2's position symbol appears 
above the target, confirming completion of the handoff.

Figure iv

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Controller 1 then contacts the pilot and instructs him to contact 
Controller 2 and provides him with the appropriate frequency. Once the 
pilot has accurately read back the new frequency, the handoff is fully 
complete, and Controller 2 assumes primary responsibility for the 
aircraft.

Handoff: TEB to EWR
    The Current air traffic control procedure does not require TEB 
controllers to pre-coordinate a transition for VFR aircraft wishing to 
travel through the EWR Class B airspace. The TEB controller simply 
flashes the aircraft to EWR, where the controller can choose either to 
accept him or request that the TEB controller instruct him to enter the 
exclusion corridor.
    In some instances, a pilot would have to change his plans if 
controller workload did not permit him to enter Class B Airspace. The 
pilot must therefore be ready to enter the exclusion zone, and should 
be prepared to switch to CTAF and announce himself, should it be 
necessary.
    However, we do not believe that this occurred on August 8. It is 
our understanding that the TEB controller initiated a timely handoff, 
which the EWR controller accepted. The EWR controller was expecting 
radio contact from the N71MC, which never came. Although controllers at 
both TEB and EWR attempted to re-establish radio communication with the 
pilot, they were unable to contact him. At the time of the collision, 
the pilot was not in communication with air traffic control at TEB or 
EWR, nor was he transmitting over CTAF.
    Had the pilot contacted EWR as instructed, the EWR controller would 
have issued climb instructions that would have taken N71MC above the 
exclusion zone and into the Class B airspace. Because N71MC did not 
successfully establish radio communication with EWR, he was unable to 
receive that clearance; instead N71MC continued eastbound, where it 
collided with the helicopter in the exclusion area.
    This incident caused us to examine the procedures governing this 
airspace, including handoff procedures. NATCA believes that 
coordination between TEB and EWR prior to take-off would reduce 
confusion at the airspace boundaries and make it less likely that a 
pilot would unknowingly enter the exclusion zone and therefore fail to 
switch to CTAF frequency. This will also allow EWR to notify TEB in 
advance that the workload is too great to allow Class B entry so the 
TEB controller may provide alternate routing options to the aircraft 
prior to the departure.

Is Controlled Airspace A Viable Option?
    In recent weeks there has been some discussion about eliminating 
the Hudson River exclusion area and converting the airspace entirely 
into Class B. Current infrastructure is unable to support the 
conversion of this type. Before any such change can be implemented, the 
following infrastructure improvements would need to be made.

        1. Comprehensive Surveillance--With the current radar 
        infrastructure, radar coverage over the Hudson River is 
        unreliable. In much of that corridor, the height and density of 
        the New York City skyline prevents radar from reaching the low 
        altitude airspace, and information on aircraft flying in this 
        area often does not appear on a controller's scope. For 
        example, when Flight 1549 lost the use of its engines, the 
        aircraft disappeared off controller Patrick Harten's scope 
        after it lost enough altitude to be obscured by the buildings. 
        If the airspace were to be converted into Class B airspace, 
        this spotty radar coverage would not be sufficient enough to 
        ensure the safety of the users. Additional radar sites would 
        need to be placed in such a way so as to ensure continuous 
        comprehensive coverage of the area.

        2. Comprehensive Radio Coverage--Just as the radar coverage is 
        obscured by the terrain of New York City, radio coverage is 
        similarly unreliable. The skyline often blocks radio signals, 
        and communication between controller and pilot might be 
        compromised. This would represent a significant safety risk if 
        pilots were relying on air traffic control for separation.

        3. Air Traffic Control--The Air Traffic Control facilities that 
        would have jurisdiction over this airspace would need to be 
        restructured to accommodate control of new airspace. A new 
        control position would have to be added to each of the affected 
        facilities: EWR, John F. Kennedy International Airport Tower 
        (JFK), LaGuardia Airport Tower (LGA), and New York Terminal 
        Approach Control (N90).

        4. Air Traffic Controller Staffing--Additional controllers 
        would need to be hired at each of the affected facilities so as 
        to ensure proper staffing for each of the new positions.

        5. Effect on General Aviation--The elimination of the exclusion 
        corridor would severely restrict access to this area by general 
        aviation. An air traffic controller is naturally constrained in 
        the number of aircraft he can safely monitor and communicate 
        with, and even a properly-staffed position would restrict the 
        number of aircraft that could utilize the Class B airspace. 
        General aviation pilots who do not wish to coordinate with air 
        traffic control would be required to go around the Class B 
        airspace, without an option to cut through.

Is the Hudson River Class B Exclusion Zone Safe?
    Following an incident of this severity, it is natural to question 
the safety of the airspace. The fact that such an incident occurred 
appears to be proof that the airspace is unsafe and needs to be fixed. 
But one must also retain the appropriate perspective and regard this 
incident in context.
    According to the NTSB, the incident on August 8 was the first 
midair collision in the Hudson River Class B Exclusion Area. The NTSB 
further noted that ``a review of the FAA's Near Midair Collision (NMAC) 
database and the National Aeronautics and Space Administration (NASA) 
Aviation Safety Reporting System (ASRS) database revealed 11 reports of 
NMACs between aircraft in the area since 1990. Only one report was 
filed in the past 10 years.'' This safety record is considered very 
good; there are far fewer NMAC reports than one may have predicted 
given that over 200 aircraft utilize this airspace per day.
    Yet this incident did occur, and it has served to highlight the 
weak points in the system. The incident has caused the aviation safety 
community to scrutinize the procedures in place at that time and devise 
ways of improving safety.

The New York Airspace Task Force
    On August 14, the FAA charted a task force and charged it with 
making recommendations to enhance the safety of the Hudson River 
airspace area. NATCA was very pleased to be included as active 
participants in this taskforce as we believe that our subject matter 
expertise on air traffic control contributed substantially to the task 
force.
    The Task Force is recommending several changes to operations, 
procedures, training and airspace structure. In general, NATCA supports 
these recommendations, but we believe that the FAA must fully consider 
the impact that these changes will have on other aspects of operation.
    For example, we agree with the task force that encouraging VFR use 
of Class B positively- controlled airspace would improve safety. But 
the large influx of VFR aircraft into Class B airspace would 
significantly increase controller workload and generate a need for 
increased staffing to meet the increased demands on the Class B Area 
position.
    The task force made the following recommendations:

        1. Modify Class B airspace to allow aircraft stratification in 
        the exclusion by mission profile for overflight versus local 
        operations--This recommends the creation of a uniform floor to 
        the Class B airspace at 1,300 ft to allow aircraft operating in 
        the exclusion to stratify by altitude. Transient traffic would 
        operate above 1,000 ft and local operators would remain below 
        1,000 ft. Under the current airspace structure the floor of the 
        Class B airspace is 1,100 ft in some places. NATCA is concerned 
        that raising the floor in these areas will cause VFR aircraft 
        receiving Class B services above the exclusion zone to 
        interfere with passenger jets landing at LaGuardia (LGA). In 
        some runway configurations, aircraft landing at LGA Runway 13 
        pass through this airspace at 1,500 ft. NATCA recommends that 
        the FAA examine this and other unintended consequences of this 
        recommendation carefully prior to implementation.

        2. Review airspace delegated by New York TRACON (N90) to local 
        air traffic control towers adjacent to the Hudson River--In its 
        current state, there is some confusion about which tower has 
        jurisdiction over which airspace. The FAA has admitted that 
        there are overlapping airspace boundaries and airspace that, 
        though controlled by a tower, has not been officially 
        delegated. This recommendation would rectify this problem and 
        clarify the roles and delegated responsibility of air traffic 
        controllers in each facility. NATCA fully supports this 
        recommendation.

        3. Revise procedures at TEB for VFR fixed-wing departures--This 
        recommendation would require air traffic controllers at TEB to 
        coordinate with controllers at EWR for aircraft wishing to 
        utilize Class B services. If workload at EWR is such that he 
        can extend Class B services to the aircraft, TEB would be 
        authorized to climb the aircraft to 1,500 ft and into Class B 
        airspace. This recommendation also would establish a 
        standardized route for aircraft departing from TEB and 
        intending to enter the exclusion that would limit the mergers 
        at the current point of entry. NATCA supports this 
        recommendation.

        4. Develop a Class B VFR transition route over the Hudson 
        River--This would publicize and promote the use of Class B 
        services among VFR pilots traveling in the area. While NATCA 
        agrees that positively-controlled airspace is safer than 
        uncontrolled airspace, we have concerns about the effects of 
        this change. If this measure is successful in increasing the 
        use of Class B services among VFR pilots, it will represent a 
        significant increase in controller workload. At present, the 
        Class B Airspace controller position described earlier is often 
        combined with the local control position, particularly during 
        weekends. If this change is to be implemented, NATCA requires a 
        commitment from the FAA to provide the additional air traffic 
        control staffing necessary to fully staff this position at all 
        times, as this position should not be combined with other 
        positions while we determine the effects of the changes on VFR 
        traffic patterns.

        5. Mandate pilot operating practices while operating in the 
        Exclusion--This would codify the voluntary procedures currently 
        recommended for pilots in the exclusion. This includes maximum 
        airspeed restrictions, announcing altitude and intentions on 
        CTAF, and flying along the west shoreline of the Hudson River 
        when southbound along the eastern shoreline when heading 
        northbound. NATCA fully supports this recommendation.

        6. Enhance pilot communication and capability and reduce 
        frequency congestion on Hudson River CTAF--This would create 
        defined areas which would utilize different frequencies and 
        decrease frequency congestion. It would also standardize 
        phraseology to reduce confusion. NATCA fully supports this 
        recommendation.

        7. Standardize and enhance multiple NY Area Aeronautical Charts 
        to assist pilot navigation--Currently there are several charts 
        covering the area, each of which contain different information 
        on the airspace. This would create a single chart with 
        standardized information. This recommendation also supports 
        recommendation four in that it would publicize the Class B 
        services available to VFR pilots. As previously stated, NATCA 
        requires full staffing of the Class B position, as changing or 
        clarifying the charts is intended to increase the usage of 
        Class B air traffic control services for VFR pilots.

        8. Develop FAA and industry standardized training and education 
        plans for pilots, fixed-base operators, and air traffic 
        controllers--NATCA believes that comprehensive and effective 
        training of pilots, controllers and other aviation safety 
        professionals is integral to maintaining the safety of the 
        airspace. In the case of air traffic controllers giving 
        clearances to pilots in this airspace, we believe that training 
        can be improved. It is important for controllers to fully 
        understand the intentions of the pilot so that they can issue 
        clearances that do not need to be altered later. Again, 
        training requires proper staffing levels at the facilities. We 
        must be able to fully cover operations during the training 
        itself.

Air Traffic Controller Staffing at NY Area Facilities
    Several of the recommendations offered by the taskforce and other 
changes that have been considered will represent an increase in 
controller workload at the facilities in the New York Area. Currently 
the controller work forces at the facilities in this area are 
understaffed, inexperienced, and operating with a potentially-dangerous 
ratio of trainees to fully certified controllers. TEB is operating with 
a number of certified controllers 42-percent below the staffing rate 
jointly agreed to by NATCA and the FAA in 1998; N90, JFK, LGA and EWR 
are 42-percent, 35-percent, 36-percent, and 32-percent below 
respectively. Additionally N90, JFK and TEB have a trainee ratio of 
over 35-percent, which had been considered the safe upper-limit by the 
FAA. LGA is not far behind, with a trainee ratio of 34-percent.\3\ If 
the safety of this area is to improve, and particularly if more VFR 
pilots are to be encouraged to utilize Class B services, it will 
require that the Class B Airspace control position be opened at all 
times. In order to do so, the facilities must be properly staffed.
---------------------------------------------------------------------------
    \3\ Staffing statistics are based on payroll data provided to NATCA 
by the FAA. They are current as of March 31, 2009.
---------------------------------------------------------------------------
NATCA Recommendations
    1. The FAA Must Thoroughly Examine the recommendations offered by 
the task force to determine their effect on the broader operation and 
air traffic controller workload. This must be done in full 
collaboration with NATCA. Only after this examination is completed and 
any risks mitigated should these recommendations be implemented.
    2. The FAA Must Collaborate With NATCA to continue investigating 
ways to improve operations, airspace and procedures. The FAA must 
formally and thoroughly include NATCA in all stages of reforming the 
New York area airspace, from development through implementation. 
NATCA's members are subject matter experts who deal with the realities 
of this airspace on the front line and in real time each day. As such, 
our Union should be regarded as a subject matter expert and be fully 
engaged in developing and implementing any and all changes.
    3. Proper Staffing to Cover Additional ATC Duties--Any change in 
operations, procedure, or airspace structure must be evaluated as to 
its effect on air traffic controller workload. Even small changes may 
have a significant effect and must be evaluated cumulatively and 
multiplied by the large volume of aircraft controllers handle at a 
given time. It is imperative that all affected air traffic control 
facilities and positions be properly staffed, including the radar 
associate position, when appropriate.

    Senator Lautenberg. Thank you, each one of you, for your 
testimony.
    Questions arise as a result of some of the things that were 
offered. We are looking, Mr. Kragh, at having better equipment 
available, better supervision available, and I ask you this. 
And any one of you who might have a view on these questions, 
please feel free to indicate that.
    Do we have in the equipment larder right now enough 
technology that that space could be covered with what is 
presently being used throughout the aviation system?
    Mr. Kragh. Senator, I am not familiar with all the 
equipment that is in the future pipeline. However, I know that 
the present infrastructure, because radar is a line-of-sight 
system and radio signals are also basically line-of-sight, they 
can be interfered with easily by tall buildings. So we 
presently do not have the equipment infrastructure or the human 
infrastructure, if you will, to control the Class Bravo 
Exclusion Area at the level of service that is used right now.
    I mean, the local helicopter operators run hundreds of 
tours each day. Sometimes several of them are airborne at the 
same time. We would certainly affect their business in some 
way, shape, or form should we be able to eventually have the 
infrastructure in place. I do not know if we could provide the 
level of service that they provide for themselves on that 
common traffic frequency.
    Senator Lautenberg. Well, Mr. Coyne, would you volunteer a 
view on it?
    Mr. Coyne. Well, I think you really have two principal 
technical resources to analyze with regard to the current 
system, and that is radar and communications. As you know, 
living along the Hudson River, both the New York side and the 
New Jersey side of that river have very high palisades or 
buildings. So to get coverage down below 500 feet or so with 
radar becomes a very, very difficult technical challenge for 
that area of space. You would have to put some very expensive 
radar installations right down along the river base there.
    Senator Lautenberg. Unless they were attached to the George 
Washington Bridge.
    Mr. Coyne. Well, that could certainly deal with the 
northern part----
    Senator Lautenberg. Because then you get the altitude----
    Mr. Coyne. But I think the better solution may be to look 
at the NextGen technology, which we are all moving forward to, 
as you know. I do not think anyone is more of an advocate of it 
than the people here in this room. And to have that kind of 
non-radar-based position information would be far more 
effective, far more costly, and far more consistent where the 
rest of the country is moving because right now--I do not think 
I can speak for the FAA, but clearly they are making plans to, 
in the next 10 years, reduce the number of radar installations 
in the country over the next 10 or 15 years. So at this point, 
to make a commitment to radar would be not as opportunistic as 
making a commitment to ADS-B or one of the other satellite-
based technologies.
    Senator Lautenberg. Mr. Day, how do you see this? Do we 
have enough equipment now--now--within a fairly reasonable 
period of time, to be able to construct a safety parameter 
around this zone? You know, I talk about the Washington Bridge 
only because when the U.S. Air flight landed on the river, 
literally, if I was home at the time, I would have seen that 
airplane pass my window. When you see the kind of traffic 
demand there is for that corridor, is there not equipment 
available that could at least guarantee some communication?
    I wrote legislation a long time ago that demanded the 
transponder C requirement on all airplanes that flew in active 
airspace. It has been in place for a number of years.
    What is there that might be, if anything, right now, that 
would be able to give better surveillance there and maintain a 
larger measure of safety?
    Mr. Day. Yes, Senator. A good part of the air 
transportation system is dependent on shared accountability 
around the issue of safety. So, first of all, we have a NextGen 
implementation plan which includes those transformational 
programs that will modernize the system, ADS-B being one of the 
transformational programs and the one that is in deployment. 
Mr. Krakowski and Ms. Gilligan are actually at a meeting right 
now to disclose the recommendations from the RTCA Task Force 5, 
which is a group of over 200 industry and agency leaders who 
have prioritized and identified those operational improvements 
that will help us transform the national airspace system.
    We are also in the process, which began in April, of doing 
a design review for ADS-B placement around the airports in the 
New York-New Jersey area. We expect to have that final design 
completed at the end of this month, then installation during 
next year, with the commissioning of that equipment with the 
automation at the end of the next calendar year. So we are on 
track to put down that infrastructure which will be completed 
nationwide by 2013.
    In addition to ADS-B which not only provides surveillance 
for the aircraft, looking to the future, there is a capability 
which is called ADS-B IN, which you may be familiar with from 
the Capstone Project up in Alaska. With ADS-B IN, we can put 
displays in the cockpit which can provide to the crew, 
information as to the terrain and traffic and weather so they 
can have better situational awareness of traffic around them.
    I think capabilities like the NextGen capabilities--ADS-B 
would be one of the premier ones at this point--can make a 
difference in the future to provide a higher level of safety 
and situational awareness.
    Senator Lautenberg. But I am looking for if it can be. I 
recognize that there is a whole technology involved. There are 
all kinds of not just systems and personnel. But to get 
something in there that says with the present use of that 
corridor, is there anything that can be done even on an interim 
basis that would say, OK--and I do not know whether there 
should be some stricter demands to pilots in the area about 
radio contact. It was suggested that maybe the pilot of the 
single-engine was not as attentive, might I say, to the radio 
signals as might have been. Is there anything that we see?
    Mr. Hart, do you have anything that you would want to add 
to this?
    Mr. Hart. Yes, Senator. I do not have an answer for your 
question today, but I would note that one of the issues we are 
looking at in relation to this accident is traffic avoidance 
technologies, in addition to the regulations regarding the use 
of those technologies in this airspace. We will be looking at 
those issues in our investigation of this accident.
    Senator Lautenberg. I think it is quite apparent that FAA--
and I want to tell you something--I doubt that FAA has any more 
enthusiastic supporters than I. To me they are like a fifth 
branch of our military, and their calls to duty are as rigid as 
one might ask. They are being taxed in many ways by 
understaffing. If we look at the condition that exists in 
Newark, for instance, where 40 controllers are called for and 
we have 26 there now, plus 7 trainees or 7 less-than-full-
performance people, is it possible that more sets of eyes and 
ears might have made a difference there?
    Mr. Day. Senator Lautenberg, we cannot say what the 
causality of the accident is. That is up to the Board, but we 
do take this seriously and we are approaching several of the 
things that you pointed out. So, for example, we are 
simplifying the airspace. We are going to common traffic 
advisory frequencies. Mr. Kragh was part of that task force. 
They made eight recommendations to the FAA on which they were 
very firm that we needed to encompass all eight recommendations 
to really get the enhanced level of safety that we all expect. 
This included working with the radar facility, that is the New 
York TRACON, to iron out and make sure we thoroughly stress-
tested the letters of agreement and the procedures among 
controllers so we had that positive communications with the 
flight crews and were trained and aware of everything that is 
necessary to make sure every flight was successful.
    Senator Lautenberg. Mr. Kragh, do you have any further 
commentary about the population in the towers? If we look at 
Newark, as I mentioned, it has an objective of 40 controllers 
and we have 34, 7 of whom are trainees. If we look at 
Teterboro, it is supposed to have 26. There are 23 but 8 of 
them are trainees. LaGuardia has 36 required to fill all the 
billets, and it has 35, just one difference. But the difference 
comes in the fact that 12 of them are trainees.
    I must tell you this. When I look at where we have been--
and I have been involved with FAA and aviation since I have 
been in the Senate--no matter how many pleas we made for 
filling the population, for having people trained--we face 
enormous retirement possibilities, and we do not have the 
population available to go into these slots and maintain the 
kind of presence that we would like to see. You are aware of 
that.
    Mr. Kragh. Yes, Senator. Interestingly enough, Newark, even 
though it is understaffed, as you just presented those numbers, 
is the best of the four New York metro towers, and our ratio of 
trainees to fully-certified controllers is the best of the four 
towers. My professional opinion on the matter is that you 
cannot have such a ratio of trainees to fully-certified 
controllers. It just makes it very difficult to have an 
efficient, safe operation when you are training that many 
people at one time.
    The other issue regarding trainees is that New York, 
Kennedy, and LaGuardia are, for lack of a better term, the 
major leagues of air traffic control towers. It is the busiest 
airspace in the world. I would use a simple analogy of, let us 
say, a med student. I would not want a med student performing 
my heart surgery. In the same situation, we often see 
controllers who have absolutely no background in air traffic 
control coming to these towers to work as developmentals.
    I think the agency was caught short-staffed when they did 
not heed the union's warnings about the massive wave of 
retirements. I believe it was 2004 when only 13 controllers 
were hired nationwide. I might be wrong about that year, but 
there was one year in recent history where only 13 controllers 
were hired nationwide while the union was shouting from the top 
of the mountain about the pending wave of retirements. And we 
now have five senior controllers at Newark who can walk out the 
door any day, and within the next 2 years, we will have three 
or four more.
    Senator Lautenberg. I think it must be made clear here that 
our air traffic control system is the finest in the world. When 
you look at the performance that goes on each and every day, 
you marvel at the quality of the service, but it is at a 
strain. There is a price that is paid for it. There is lots of 
overtime. There is lots of stress on the individuals who are 
doing it despite the fact that they do it so well.
    Mr. Day, would Next Generation air traffic control 
technology allow all aircraft in this airspace to be tracked?
    Mr. Day. It is feasible with technology that, we can do a 
lot of surveillance. It all depends on siting. As you know, it 
is a complex environment from the skyline and the structures, 
as well as the radio frequency interference, and that is an 
engineering design challenge--but hypothetically we can surveil 
quite a bit.
    Senator Lautenberg. So we are not at a stage where we can 
say, OK, we have got everything designed. We are ready for 
manufacture or installation and so forth. We are not at that 
point in our development.
    Mr. Day. Again, sir, it is hypothetical without the 
engineering work. The technology is there, but certainly from 
an engineering standpoint, it would need additional study. We 
are conducting site surveys up there right now for ADS-B 
coverage. That is around the Kennedy-LaGuardia-Newark area, and 
we will know later this month what we feel we can see in that 
region.
    Senator Lautenberg. How oversimplified am I being when I 
say that perhaps the George Washington Bridge could include 
some what would be onsite radar to be looking down that river 
and giving us a lot of information?
    Mr. Day. I do not think you are being oversimplified at all 
but putting the 50-year-old radar technology in may limit the 
possibilities for dealing with complex, high-density operations 
in the future. We really need to move to high-update type of 
surveillance systems like ADS-B, and capabilities like Data 
Link. This is because with high traffic saturation, the 
physical ability for the controller to talk individually by 
voice with each aircraft may be a limiter in the level of 
safety and efficiency that they can provide to the public in 
that area. So it is not a simple solution.
    We have got the task force together. NATCA has been part of 
that. We are looking at, in the near term over the next 5 
years, those types of capabilities that we can put into the 
system.
    In addition, I would like to mention that performance-based 
navigation, RNAV and RNP, if you are familiar with that, is 
another solution where we can segregate aircraft by mission 
profile or destination to keep them separated from one another. 
What has great possibility is redesigning the airspace, as well 
as putting in the performance-based RNAV/RNP capabilities and 
adding the surveillance and in the future the Data Link type of 
communications that will make up our NextGen system.
    Senator Lautenberg. Mr. Day, the New York Airspace Task 
Force highlighted the benefits of good collaboration between 
the traffic controllers and the FAA, something that seems to 
not have been done in the past. So now, is FAA committed to 
including the air traffic controllers in FAA projects, 
including implementation of Next Gen and airspace redesign, to 
make sure that we have the knowledge and the benefit of their 
experience on the front line?
    Mr. Day. Senator, we have had great experience in the Task 
Force 5, as well as this recent task force that Mr. Kragh 
participated in. Also, the New York-New Jersey-Philadelphia 
airspace redesign went well over a decade, and had many 
subject-matter experts, including controllers involved in that. 
The Administrator recognizes and we believe that controller 
participation and technician participation is a valuable asset 
in deploying capabilities into the future. So, yes, sir, we do 
believe in their participation.
    Senator Lautenberg. That is your army and you have got to 
know what the soldiers say, what the soldiers see when you are 
designing a tactic or a strategy. Certainly I would recommend 
that that be an integral part of any planning actions that are 
taking place.
    The Hudson River crash was, again, with an on-demand 
aircraft. In 2005, an FAA special committee made 124 
recommendations to the FAA to improve the safety of on-demand 
operators. And the NTSB, Mr. Hart, has issued 16 
recommendations to the FAA on this subject. Yet, none of these 
recommendations have been adopted by FAA. When should we expect 
FAA to finally act on these recommendations?
    Mr. Hart. Thank you, Senator. Of course, we are always 
pushing for implementation of all of our recommendations as 
soon as possible, but I will have to get back to you with more 
specific answers to your question. I am not conversant on those 
recommendations as we speak.
    [The information referred to follows:]

    The NTSB does not know how quickly the FAA will implement our 
recommendations, but we will continue to use every means at our 
disposal to get them implemented as quickly as possible.
    Our investigation into the Hudson River accident is ongoing, and 
the NTSB has yet to determine if any of the outstanding recommendations 
to the FAA regarding on-demand operations are applicable to this 
accident.

    Senator Lautenberg. Mr. Day, do you have any comments?
    Mr. Day. Senator, unfortunately, Ms. Gilligan could not be 
here, and she is the arm of the FAA that regulates those on-
demand types of operations. That is different than my 
discipline. So I will have to take an IOU.
    Senator Lautenberg. Will you see that I get a response to 
that?
    Mr. Day. We will. We will get that back, sir.
    [The information referred to follows:]

    Federal Aviation Administration Report AV-2009-066, dated July 13, 
2009, stated that 16 National Transportation Safety Board 
recommendations resulting from on-demand operator accident 
investigations remained open. Those recommendations are listed below 
with a brief synopsis of current activity, and categorized by the 
bolded print. We continue to make an assertive effort to respond to all 
the pending safety recommendations.
Flight Duty and Rest
    A-06-12: Require all emergency medical services operators to comply 
with 14 Code of Federal Regulations Part 135 operations specifications 
during the conduct of all flights with medical personnel onboard.
    NTSB Status: Open-unacceptable
    FAA Status: The FAA has drafted an NPRM for air ambulance and 
commercial helicopter operations that will have language addressing 
Part 135 flight and duty time. We anticipate completion of the NPRM in 
January 2010 with publication following clearance from the Department 
and the Office of Management and Budget.
    We have submitted this status to the NTSB and are currently waiting 
on the Board's response.

Icing Conditions
    A-06-42: Develop visual and tactile training aids to accurately 
depict small amounts of upper wing surface contamination and require 
all commercial airplane operators to incorporate these training aids 
into their initial and recurrent training.
    NTSB Status: Open-unacceptable
    FAA Status: The FAA has tried to impress upon the NTSB how 
difficult it is to provide visual and tactile training aids that can 
represent the wide variety of aircraft and aircraft surfaces, as well 
as types of contaminants that exist in various environments. The FAA 
believes the best approach is for pilots to know what their specific 
aircraft surfaces look and feel like in wet and dry conditions. The FAA 
believes that pilots should be trained that any difference in 
appearance or feel is unacceptable and the contaminant must be removed 
prior to flight. The best training device to accomplish this is the 
actual aircraft with visual and hands-on training on recognition of 
contamination. The FAA has made several changes to various documents 
which specifically recommend certificate holder's training curricula 
include aircraft type-specific techniques for use by the flight crew 
and other personnel for recognizing contamination on aircraft surfaces. 
They also state that the flight crew and other personnel should use 
these type-specific techniques while conducting preflight aircraft 
icing checks, pre-takeoff checks, and pre-takeoff contamination checks. 
It is recommended to all pilots to ensure that the aircraft's lift-
generating surfaces are completely free of contamination before flight 
through a tactile check of the critical surfaces when feasible.
    Since our last response to the NTSB, the FAA has developed InFO 
09016 to again inform operators of the necessity of removing all 
contamination from critical aircraft surfaces, no matter how thin, 
patchy or where it is located. The InFO also provides guidance to 
operators and pilots on how to conduct a visual and tactile inspection 
and how to train a pilot to accurately conduct these checks. The InFO 
is scheduled for publication in November 2009.

Crew Resource Management (CRM)
    A-03-52: Require that 14 Code of Federal Regulations (CFR) Part 135 
on-demand charter operators that conduct dual-pilot operations 
establish and implement a Federal Aviation Administration-approved crew 
resource management training program for their flight crews in 
accordance with 14 CFR Part 121, subparts N and O.
    NTSB Status: Open-unacceptable
    FAA Status: On May 1, 2009, the FAA issued the Notice of Proposed 
Rulemaking (NPRM), Crew Resource Management Training for Crewmembers in 
Part 135 Operations (74 FR 20263). The NPRM proposes a requirement for 
all Part 135 certificate holders, both single-pilot and dual-pilot 
operations, to implement FAA-approved crew resource management training 
for crewmembers. We expect the final rule to be published in 2010.
    We have submitted this status to the NTSB and are currently waiting 
on the Board's response.

Cabin Safety
    A-06-68: Require all 14 Code of Federal Regulations Part 135 
certificate holders to ensure that seatbelts at all seat positions are 
visible and accessible to passengers before each flight.
    NTSB Status: Open-acceptable alternative
    FAA Status: The FAA agrees that a seatbelt must be visible and 
accessible to support compliance with the regulations. Accordingly, we 
issued SAFO 08004 to remind operators of this. We also revised 
inspector guidance for surveillance of cabin interiors to include a 
check of passenger seatbelts to verify they are visible and accessible 
to passengers. This effort resulted in revisions to three sections of 
FAA Order 8900.1.
    We have submitted this status to the NTSB and are currently waiting 
on the Board's response.
    A-06-69: Require that any cabin personnel on board 14 Code of 
Federal Regulations Part 135 flights who could be perceived by 
passengers as equivalent to a qualified flight attendant receive basic 
FAA-approved safety training in at least the following areas: preflight 
briefing and safety checks; emergency exit operation; and emergency 
equipment usage. This training should be documented and recorded by the 
Part 135 certificate holder.
    NTSB Status: Open-acceptable
    FAA Status: FAA issued SAFO 08010, Accomplishing safety-related 
Functions in Part 135 Operations, on March 20, 2008. This SAFO stresses 
to pilots in 14 CFR Part 135 Operations the importance of: (1) clearly 
identifying to passengers those crew members who are safety-qualified 
and those who are not, and (2) accomplishing all functions relating to 
passenger safety when no safety-qualified flight attendant is on board.
    We have submitted this status to the NTSB and are currently waiting 
on the Board's response.

Personal Flotation Devices
    A-07-27: Require that all helicopters used in commercial air tour 
operations over water, regardless of the amount of time over water, be 
amphibious or equipped with fixed or inflatable floats.
    NTSB Status: Open-unacceptable
    FAA Status: The FAA issued Part 136, Commercial Air Tours and 
National Parks Air Tour Management, which includes requirements for 
additional emergency equipment for over water operations, including 
life preservers and helicopter floats for all single-engine helicopters 
and certain multi-engine helicopters. The FAA also published Operations 
Specifications to address this issue. We consider that our actions 
address the intent of this safety recommendation.
    A-07-28: Evaluate the design, maintenance, and in-service handling 
of personal flotation devices (PFDs) manufactured in compliance with 
Technical Standard Order C13f to determine the reason that some 
chambers fail to inflate when the inflation handles are pulled before 
the PFDs have reached the manufacturer's recommended inspection 
interval.
    A-07-29: On the basis of the results of the evaluation requested by 
Safety Recommendation A-07-28, ensure that personal flotation devices 
manufactured in compliance with Technical Standard Order C13f remain 
usable throughout the manufacturer's inspection interval.
    NTSB Status: Open-acceptable
    FAA Status: FAA agrees with the intent of these safety 
recommendations and has stated that a program is being initiated to 
identify the specific life preserver model having in-service inflation 
failures and to determine the design, maintenance, and handling causes 
leading to the failures.

Oversight and Training
    A-06-52: Require records reviews, aging airplane inspections, and 
supplemental inspections for all airplanes operated under 14 Code of 
Federal Regulations (CFR) Part 121, all U.S. registered airplanes 
operated under 14 CFR Part 129, and all airplanes used in scheduled 
operations under 14 CFR Part 135. This would include those airplanes 
operated under Part 135 that carry nine or fewer passengers and those 
that are operated in scheduled cargo service.
    NTSB Status: Closed-unacceptable
    FAA Status: In its letter of June 2009, the Board stated the 2006 
Advisory Circular (AC) on Fatigue Management Programs for Airplanes 
with a Demonstrated Risk of Catastrophic Failure Due to Fatigue, is 
reactive. The AC however, provides guidance to address an unsafe 
condition when there is a demonstrated risk of catastrophic failure, 
rather than establishing an inspection program to discover serious 
structural problems that threaten an aircraft's safety before a failure 
occurs.
    A-05-9: Develop specific criteria regarding the number of accidents 
and/or incidents that would cause an increase in oversight of an 
operator.
    NTSB Status: Open-acceptable
    FAA Status: The focus of the FAA's oversight program is to verify 
that air carrier systems comply with regulatory standards and to 
validate that those programs perform as intended. The FAA amended FAA 
Order 1800.56, National Program Guidelines, which now requires 
principal inspectors to consider accident/incident trends, patterns and 
causal factors, as well as other types of safety data that may signal a 
need for additional surveillance.
    A-05-8: Review the procedures used during its oversight of Air 
Sunshine, including those for the Surveillance and Evaluation Program 
and Regional Aviation Safety Inspection Program, to determine why the 
inspections failed to ensure that operational and maintenance issues 
that existed at the company were corrected. On the basis of the 
findings of this review, modify Part 135 inspection procedures to 
ensure that such issues, including maintenance record keeping and 
practices, are identified and corrected before accidents occur.
    NTSB Status: Closed-acceptable
    FAA Status: In August 2009, the Board classified this 
recommendation as closed acceptable stating that Southern Region 
Evaluation Services Office review and report and the resulting 
revisions to Order 8900.1 complete the recommended action.
    A-03-51: Conduct en route inspections and observe ground training, 
flight training, and proficiency checks at all 14 Code of Federal 
Regulations Part 135 on-demand charter operations as is done at Part 
121 operations and Part 135 commuter operations to ensure the adequacy, 
quality, and standardization of pilot training and flight operations.
    NTSB Status: Open-acceptable alternative
    FAA Status: The FAA has accomplished a number of actions to address 
the safety intent of this recommendation. The FAA published Notice 
8900.49, Work Program Development for Part 135 Helicopter Emergency 
Medical Services (HEMS) Operators or Commercial Air Tour Operators on 
September 10, 2008, which instructed assigned inspectors to use 
Surveillance Priority Index (SPI) when planning their work programs, 
and to document a specific national use code in the Program Tracking 
and Reporting Subsystem (PTRS) when recording the results of en route 
inspections. The FAA met with the NTSB staff in August 2009 to 
demonstrate the use of the SPI to prioritize oversight activities.
    Since the FAA issued Notice 8900.49, the FAA has also issued Order 
1800.56J, National Flight Standards Work Program Guidelines for FY2010. 
The work programs are risk-based and are created and adjusted based on 
recurring safety assessments. Order 1800.56J requires inspectors to use 
the Safety Performance Analysis System (SPAS) for safety assessment, 
surveillance planning, decision-making, certification, and 
investigation, as appropriate.

General Aviation and Air Taxi Activity (GAATA) Survey
    A-05-11: Develop, validate, and document an unbiased method for 
generating and revising activity estimates based on nonscheduled 14 
Code of Federal Regulations Part 135 and Part 91, Subpart K, operator 
surveys or reporting.
    NTSB Status: Open-acceptable
    FAA Status: The Board's response of January 2006, commended the FAA 
for its efforts in improving the credibility of data obtained by the 
General Aviation survey. They also noted that the recommendations asked 
that the FAA: (1) validate the newly obtained data with other industry 
activity measures and (2) document the accuracy and degree to which the 
new survey process captures industry activity. The Board classified 
this recommendation as open acceptable. The FAA has taken several 
measures to improve the accuracy of the reporting for nonscheduled 
Parts 135 and 91. The sampling size for the survey has tripled and we 
are now sampling 100 percent of all Part 135 operators. Results from 
the revised 2004-2006 surveys show consistently improved data, which 
has built a higher confidence among both government and industry users. 
Once the preliminary survey data is received every September, the data 
is sent to NTSB, GAMA and AOPA and several offices within the FAA for 
validation. All parties have until October to concur with the validity 
of the data and that becomes the official data for that year.
    A-03-37: Require nonscheduled Part 135 operators to report activity 
data on an annual basis to include total hours flown, revenue flight 
hours, revenue miles flown, and number of departures by category/class 
of aircraft; to identify for each aircraft the proportion of flight 
time operations that are involved in sightseeing, air medical 
transport, passenger transportation, and cargo only transportation; to 
report for cargo operations freight ton miles available and freight ton 
miles flown; and to report for passenger service operations seat miles 
available and passenger miles flown.
    NTSB Status: Open-acceptable
    FAA Status: In an effort to get all operators to report their 
activity data, the FAA looked for a way to reach out to all operators. 
The FAA developed an independent data collection track for high-end, 
high-use operators, as well as the acquisition and use of secondary 
data sources for locating knowledgeable respondents. As a result, all 
Part 135 operators receive a survey, and currently each Part 135 
operator receives a single specially designed summary questionnaire to 
allow reporting of their entire fleet of aircraft. The FAA also worked 
closely with Part 135 associations, such as NBAA and NATA with outreach 
activities to encourage their members to respond. Because of the 
changes and the active assistance from industry and trade 
organizations, the statistical validity of the nonscheduled Part 135 
activity has significantly improved and at this time the FAA is not 
pursuing mandatory reporting.

Cockpit Voice Recorder
    A-03-63: Amend the current regulations for 14 Code of Federal 
Regulations Parts 91, 135, and 121 operations to require all turbine 
powered, nonexperimental, nonrestricted category aircraft that have the 
capability of seating six or more passengers to be equipped with an 
approved 2 hour cockpit voice recorder that is operated continuously 
from the start of the use of the checklist (before starting engines for 
the purpose of flight), to completion of the final checklist at the 
termination of the flight.
    NTSB Status: Open-unacceptable
    FAA Status: On March 7, 2008, FAA published Final Rule, Revisions 
to Cockpit Voice Recorder and Digital Flight Data Recorder (DFDR) 
Regulations. The final rule includes a retrofit requirement for 
existing turbine-engine powered airplanes operated under Parts 121 and 
125. By April 7, 2012, these airplanes are required to have an approved 
CVR that can record at least the last 2 hours of information and 
operate continuously from the use of the checklist before the flight to 
completion of the final checklist at the end of the flight. These same 
requirements apply to newly manufactured airplanes operated under Parts 
121 and 125 after April 6, 2010.
    For Part 91 aircraft required to carry a CVR, the requirement for 
the CVR to be operated continuously from the use of the checklist 
before the flight to completion of the final checklist at the end of 
the flight has been effective since October 11, 1991. The final rule 
has mandated this same requirement for Part 135 newly manufactured 
aircraft that are required to carry a CVR after April 6, 2010.
    The final rule also has a requirement for the CVR to record at 
least the last 2 hours of information for aircraft that are required to 
have a CVR and operated under Parts 91 and 135. This requirement will 
affect newly manufactured aircraft after April 6, 2010.
    We have decided not to mandate the CVR retrofit requirements of 
recording at least the last 2 hours of information and operating 
continuously from the use of the checklist before the flight to 
completion of the final checklist at the end of the flight for aircraft 
required to carry a CVR operating under Parts 91 and 135. In responding 
to comments received to the NPRM, we were not able to quantify or 
justify the potential burden of the CVR retrofit requirements on these 
operators and the requirement for retrofit was removed from the final 
version of the rule.
    We have submitted this status to the NTSB and are currently waiting 
on the Board's response.

    Senator Lautenberg. The recommendations from the New York 
Airspace Task Force are supposed to take effect November 19 of 
this year. Is the FAA going to meet that deadline?
    Mr. Day. Yes, sir, we intend to. I think it is a credit to 
the diverse task force that we put together. We built buy-in 
for those recommendations by using the operators, as well as 
the employees and the employees' labor representatives, in 
fashioning these recommendations. So we believe that given the 
public comment period, we will have buy-in and support and good 
feedback on those recommendations. We will be able to implement 
them on November 19. We will be ready.
    Senator Lautenberg. Mr. Hart, I would ask you this. The 
NTSB has repeatedly recommended to the FAA the importance of 
pilots having sufficient rest prior to flights. Given the lack 
of safety oversight on on-demand operators, how can the FAA be 
assured that pilots are not fatigued and not getting the 
appropriate time away before flying these aircraft?
    Mr. Hart. That is a very good question, Senator, and 
certainly we are looking at the question in relation to the 
Colgan accident. We have not identified fatigue as an issue in 
this accident, and we are doing quite a bit in that regard on 
the Colgan accident which will come out in that report.
    Senator Lautenberg. We are looking forward to your answer 
there, because the very shape of the structure invites some 
fatigue because a home base may be in one place and people have 
to include that flying time to get to their operating station, 
and also the fact is that so much time is consumed away from 
direct pilot responsibilities but getting to and from work.
    I thank each one of you for your testimony. We are going to 
take the liberty of calling on you. We will keep the record 
open for 2 weeks, and we will see if any of our other members, 
who could not be here, have any questions.
    We salute your efforts toward safety, but we have to make 
sure that everybody who gets into an airplane has the feeling 
that it is being supervised by the FAA or some other agency 
that has responsibility for their safety and convenience.
    Thank you all very much.
    [Whereupon, at 3:37 p.m., the hearing was adjourned.]


                            A P P E N D I X

                                               U.S. Senate,
                                    Washington, DC, August 10, 2009
Hon. Byron L. Dorgan,
Chairman,
Subcommittee on Aviation Operations, Safety, and Security,
Senate Committee on Commerce, Science, and Transportation.

Dear Chairman Dorgan:

    I am writing to request that the Subcommittee on Aviation 
Operations, Safety, and Security move expeditiously to hold a hearing 
on the safety of ``on-demand'' aircraft--small, privately chartered 
aircraft, including helicopters.
    This past weekend. a small private airplane taking off from 
Teterboro Airport in New Jersey and carrying three people and a New 
York City tourist helicopter carrying six people collided over the 
Hudson River, killing all nine people. This deadly crash highlights 
concerns not only with the specific airspace above the Hudson River, 
where pilots must navigate the busy skies through a tactic known as 
``see and avoid,'' but also with on-demand aircraft safety more 
generally.
    According to a report issued by the U.S. Department of 
Transportation's Inspector General (IG) last month, on-demand aircraft 
receive far less oversight from the Federal Aviation Administration 
(FAA) and have far more fatalities than commercial aircraft. Moreover, 
although the National Transportation Safety Board (NTSB) has identified 
a number of safety improvements related to small, privately chartered 
aircraft, the FAA has failed to implement these improvements. For 
example, following a 2005 accident in Teterboro, New Jersey, the NTSB 
made recommendations regarding flight attendant training improvements 
that could have mitigated the injuries during that crash; to date, the 
FAA has not proposed any regulatory changes to address these 
recommendations. In fact, the FAA's rules for small, privately 
chartered aircraft have not been updated since 1978.
    In light of Saturday's final crash and overdue safety improvements 
for on-demand aircraft, I respectfully request a hearing to examine 
this critical aviation safety issue. Thank you for your consideration 
and please let me know if I can be of assistance.
            Sincerely,
                                       Frank R. Lautenberg,
                                                      U.S. Senator.
                                 ______
                                 
           Prepared Statement of Craig L. Fuller, President, 
                 Aircraft Owners and Pilots Association

    My name is Craig Fuller, and I am President and Chief Executive 
Officer of the Aircraft Owners and Pilots Association (AOPA), a not-
for-profit individual membership organization representing more than 
415,000 members, nearly three-quarters of the Nation's pilots. AOPA's 
mission is to effectively represent the interests of its members as 
aircraft owners and pilots concerning the economy, safety, utility, and 
popularity of flight in general aviation (GA) aircraft.
    Although GA is typically characterized by recreational flying, it 
encompasses much more. In addition to providing personal, business, and 
freight transportation, general aviation supports such diverse 
activities as law enforcement, fire fighting, air ambulance, logging, 
fish and wildlife management, news gathering, and other vital services.
    Each year, 170 million passengers fly using personal aviation, the 
equivalent of one of the Nation's major airlines, contributing more 
than $150 billion to U.S. economic output, directly or indirectly, and 
employing nearly 1.3 million people whose collective annual earnings 
exceed $53 billion. General aviation serves 5,200 public-use airports 
as well as more than 13,000 privately-owned landing facilities. In a 
poll conducted on election night last November, more than 60 percent of 
American voters said they understood that general aviation (all flying 
other than military or commercial airlines) is a vital part of 
America's transportation system.

Controlled and Uncontrolled Airspace
    The notion that we have uncontrolled airspace in the United States 
may, at first blush, seem unusual. Despite official use of the term 
``uncontrolled'', the reality is that all airspace in the United States 
exists under some degree of control. Those of us who fly in the 
airspace do so within a complex set of rules and regulations that 
control where we fly and under what conditions. What is referred to as 
``uncontrolled airspace'' is actually carefully depicted on charts and 
is available to pilots only when very specific weather and visibility 
conditions exist.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1: Uncontrolled airspace from the surface to 700, is charted 
within the shaded magenta areas. Outside these areas uncontrolled 
airspace exists from the surface to 1,200,.

    In practice, different groups tend to refer to different types of 
airspace as ``uncontrolled.'' Air traffic control (ATC) typically 
considers airspace outside of the areas where controllers provide 
positive control of all aircraft to be ``uncontrolled.'' This would 
generally include any airspace that is not designated as Class A, B, C, 
or D airspace.
    The official FAA definition of ``uncontrolled'' airspace is 
different, however. According to the FAA, uncontrolled airspace is 
simply airspace with lower visibility and cloud clearance requirements. 
It typically exists below 700 feet above the ground in the vicinity of 
most airports and below 1,200 feet above the ground in most other 
areas. In the Hudson River corridor, controlled airspace begins at 700 
feet, meaning most traffic, including most all fixed-wing traffic, is 
flying within controlled airspace. Most VFR flyways or ``corridors,'' 
including the Hudson River corridor, are actually within controlled 
airspace.
    Even though the airspace is technically ``controlled'', aircraft 
choosing to operate under IFR are steered clear of such corridors, even 
when weather is good. This ensures that instrument flights, whether 
commercial or private, are kept separate from VFR flights operating in 
designated corridors, flyways, and transition routes.
VFR Flying Is Controlled by Definition
    Although they often are characterized as ``uncontrolled,'' flights 
made under visual flight rules, or VFR, adhere to strict procedures 
designed to ensure the safety of those in the air and on the ground.
    VFR flight is governed by a defined set of FAA regulations and 
``rules of the road'' covering operation of aircraft primarily by 
visual reference to the horizon for aircraft control and see-and-avoid 
procedures for traffic separation. VFR is used by more than 70 percent 
of all flights; it is not, by definition, uncontrolled or out of 
control.
    All pilots, including those who fly exclusively under visual flight 
rules, are required to undergo extensive training, be tested to 
established FAA standards, and maintain proficiency at levels 
determined by the FAA. Pilot qualifications must be reevaluated at 
least every 2 years. In addition, pilots must adhere to regulatory 
requirements for flight planning and follow regulations governing 
factors including airspeed, direction of flight, altitude, weather 
minimums, and communication.
    The rules that govern visual flight, instrument flight, and 
operations through airspace corridors are established precisely to 
maximize operational safety. The rules are taught to all pilots, tested 
over time, and refined as necessary, as we have recently seen from the 
process of reviewing and revising the rules for flying in the airspace 
over the Hudson River in New York.
    Hundreds of thousands of safe operations have been conducted year 
after year in corridors around the Nation. They represent consistent, 
long-term evidence that VFR traffic can be safely and efficiently 
accommodated even in the busiest airspace.

See and Avoid
    Under FAA regulations, all pilots are ultimately responsible for 
maintaining separation from other aircraft whenever visual conditions 
permit, as they do at any time aircraft are operating under VFR. Even 
flights that are being guided by air traffic controllers, either under 
instrument flight rules (IFR) or VFR, are responsible for visually 
scanning to see and avoid potential traffic conflicts. The see-and-
avoid principle is codified in Federal Aviation Regulation 14 CFR Part 
91.113(b) as follows:

        ``When weather conditions permit, regardless of whether an 
        operation is conducted under instrument flight rules or visual 
        flight rules, vigilance shall be maintained by each person 
        operating an aircraft so as to see and avoid other aircraft. 
        When a rule of this section gives another aircraft the right-
        of-way, the pilot shall give way to that aircraft and may not 
        pass over, under, or ahead of it unless well clear.''

    With the onus on all pilots to be vigilant for other traffic, 
midair collisions are rare. For example, in 2007, there were 624,007 
pilots in the United States along with 221,943 general aviation 
aircraft. All told, pilots flew 21.4 million flight hours that year. 
That same year, general aviation aircraft were involved in 10 midair 
collisions, four of which were fatal. The accidents included a 
collision between competitors rounding a pylon in an air race, and a 
collision between two aircraft conducting a formation landing. Of the 
remaining accidents, two occurred during flight instruction; three 
occurred in the traffic pattern, including one at a towered airport; 
two occurred during formation flight; and one occurred in low-altitude 
cruising flight.

Corridors, Flyways and Transition Routes
    The aviation community utilizes many terms, often in the wrong 
context, to describe methods of transitioning either through or around 
the Nation's busiest airspace, designated as Class B. Class B airspace 
surrounds the largest airports in cities like Boston, Chicago, Los 
Angeles, and New York, among others.
    Class B airspace is designed to help manage the flow of high 
volumes of airline traffic as these aircraft transition from the high-
altitude flight levels into the lower altitudes and eventually to the 
airport itself and in reverse for departing aircraft. The airspace is 
shaped like an upside-down wedding cake with concentric expanding 
circles stacked on top of each other. The airspace and corresponding 
shape funnels aircraft in and out of the main airport.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2: Class B airspace takes the form of an upside down wedding 
cake, with the largest rings at the highest altitudes.

    Most, but not all, Class B airspace extends from the surface to 
10,000 feet mean sea level (msl) with the diameter of the largest and 
highest sections often exceeding 40 nautical miles. Pilots must obtain 
a clearance from air traffic control before entering Class B airspace 
and then maintain radio contact with ATC. Aircraft must be equipped 
with an altitude-encoding transponder.
    Published VFR routes for transitioning around, under, and through 
complex airspace such as Class B airspace were developed through a 
number of FAA and industry initiatives. The terms ``VFR flyway'', ``VFR 
corridor'', and ``Class B airspace VFR transition route'' all have been 
used when referring to such routes or airspace.
    Each type of transition airspace is slightly different, although 
all share the goal of guiding VFR traffic safely in the vicinity of 
busy, complex airspace.
    VFR flyways are general flight paths, not defined as a specific 
course, for use by pilots in planning flights into, out of, through, or 
near complex terminal airspace to avoid Class B airspace. An ATC 
clearance is not required to fly these routes. These routes are not 
intended to discourage requests for VFR operations within Class B 
airspace but are designed to assist pilots in planning flights that do 
not actually enter Class B airspace.
    VFR flyways are generally charted on VFR Flyway Charts found on the 
reverse side of many Terminal Area Charts, but not all flyways are 
charted. The route commonly referred to as the ``Hudson River 
Corridor'' by pilots and the ``Hudson River Exclusion'' by air traffic 
controllers is actually an example of an uncharted VFR flyway. 
(Although it should be noted that the FAA plans to chart this route in 
the future as part of the revisions planned following the recent Hudson 
River midair collision.)
    It is important to remember that these suggested routes are not 
sterile of other traffic. The entire Class B airspace, and the airspace 
underneath it, may be heavily congested with many different types of 
aircraft. Pilots using flyways must strictly adhere to VFR rules.
    VFR corridors are designed into some Class B airspace areas to 
provide a designated space for the passage of VFR traffic. A VFR 
corridor is defined as airspace through Class B airspace, with defined 
vertical and lateral boundaries, in which aircraft may operate without 
an ATC clearance or communication with air traffic control. A corridor 
is, in effect, a ``hole'' through Class B airspace. A corridor is 
surrounded on all sides by Class B airspace and does not extend down to 
the surface like a VFR flyway. One example of a corridor can be found 
in the San Diego Class B airspace just east of the airport between 
3,300 feet and 4,700 feet.
    Because of the heavy traffic volume and the procedures necessary to 
efficiently manage the flow of traffic, it has not been possible to 
incorporate VFR corridors in the development or modification of Class B 
airspace in recent years.
    To accommodate VFR traffic through certain Class B airspace, such 
as Seattle, Phoenix and Los Angeles, Class B airspace VFR transition 
routes were developed. A Class B airspace VFR transition route is 
defined as a specific flight course depicted on a Terminal Area Chart 
for transiting specific Class B airspace. These routes include ATC-
assigned altitudes, and pilots must obtain an ATC clearance prior to 
entering Class B airspace on the route.

``Corridors'' Are Necessary and Enhance Safety
    Since becoming president of AOPA 8 months ago, I have flown 
numerous times into busy airspace around New York, Boston, Houston, 
Dallas, and Los Angeles. In all cases, I flew using an instrument 
flight plan. My approaches and departures were handled by air traffic 
control, keeping me clear of the areas where aircraft could operate 
under visual flight rules without contacting air traffic control.
    Without the VFR corridors, flyways, and transition routes, air 
traffic controllers would be forced to handle thousands of additional 
operations in and around some of the busiest airspace in the country. 
Delays would be inevitable and some aircraft would skirt the areas 
requiring contact with air traffic control, making their precise 
locations unpredictable. Corridors, flyways, and transition routes 
create designated spaces for these VFR flights, easing controller 
workload, and making it easier for aircraft to avoid one another in 
crowded skies.
    In the days since the Hudson River midair collision, I have heard 
from many AOPA members who have safely used the Hudson River flyway and 
similar routes nationwide for many years. Their comments consistently 
note that such routes are efficient means of safely navigating through 
busy airspace, adding that if these routes were lost, pilots would be 
forced to fly many miles out of their way, significantly increasing 
costs and imposing new safety risks associated with fuel usage and 
weather considerations.

The Hudson River Corridor Working Group Recommendations
    It is understandable that a tragedy like the one we recently 
witnessed in New York brings calls for major airspace realignments. 
While these calls are based on the best of intentions, it is important 
to base action on careful calculations of risks and airspace 
utilization. Even well-intentioned efforts to realign airspace are 
likely to come with unintended consequences that could increase, rather 
than reduce, hazards in and around busy airspace.
    FAA Administrator Randy Babbitt on Sept. 2 announced steps the 
agency will take to enhance safety in the Hudson River flyway--steps 
AOPA believes are sensible and likely to have a favorable effect.
    The plan is the direct result of a working group convened by 
Babbitt just 2 weeks ago that was made up primarily of FAA staff from 
diverse departments, including the air traffic organization, air 
traffic controllers, airspace designers, and flight standards. The 
panel also included AOPA and representatives of two other industry 
groups to reflect the needs of airspace users. I believe this 
cooperative effort is an excellent example of how to effectively 
address safety concerns by considering the needs of all stakeholders.
    The FAA is expected to implement the working group's eight 
recommendations, which align closely with those developed independently 
by the National Transportation Safety Board (NTSB).
    The working group report suggests making current best practices 
mandatory. These practices including flying with lights on and using 
two-way air-to-air communication. The recommendations also include 
developing flight rules and training for operations in the exclusion 
zone. As noted previously, the FAA plan also goes beyond the NTSB 
recommendations by adding improved charting to include VFR flyways, 
which will give pilots more and better information.

Training and Education
    Pilots are accustomed to making recurring training part of their 
flying regimen. Pilots engage in both mandatory and voluntary training 
programs aimed at improving safety. AOPA is actively assisting in 
making additional training materials and programs available to pilots 
through the AOPA Air Safety Foundation.
    Earlier this week, AOPA Air Safety Foundation President Bruce 
Landsberg went to New Jersey to host a training seminar focusing on 
best practices for flying in and around New York. The seminar was 
available both in person and via Web cast to maximize participation.
    In addition, numerous mechanisms already exist to ensure that 
training on the use of flyways, corridors, and transition routes is 
integrated into ongoing pilot training. Options include making it an 
area of emphasis for flight reviews, which are required of all active 
pilots every 2 years, and practical tests, which are taken by all new 
pilots as well as those who are upgrading or adding new certificates or 
ratings. Information on using corridors can also be added to Flight 
instructor renewal courses, which many flight instructors use to renew 
their certificates every 2 years. Finally, the aviation industry can be 
enlisted to communicate key training information through print and 
electronic media such as magazines and newspapers delivered to pilots. 
The FAA's FAAST Team provides another possible mechanism for 
disseminating important safety and training information.

Conclusion and Summary
    Safety is a top priority for everyone within the aviation 
community, and history has shown that VFR flyways, corridors, and 
transition routes are a safe and efficient way of moving traffic 
through some of the Nation's busiest airspace.
    Despite the use of the term ``uncontrolled'', virtually all 
airspace is controlled to some degree, and pilots who fly in it must 
strictly adhere to regulations and requirements governing everything 
from their qualifications and the airworthiness of their aircraft to 
weather and altitude.
    By providing well-known routes through complex and busy airspace, 
these ``corridors'' reduce the workload on air traffic controllers and 
help controllers and other pilots predict the location of VFR traffic. 
Eliminating such routes could have dangerous unintended consequences.
    At the same time, as the recent Hudson River Corridor Working Group 
demonstrated, there are opportunities to enhance safety while keeping 
the airspace open by codifying best practices, improving charting, and 
making additional training materials available to pilots. Identifying 
such opportunities can be done most effectively when the FAA partners 
with the aviation industry to identify the needs of stakeholders early 
in the process.
                                 ______
                                 
          Prepared Statement of Ed Bolen, President and CEO, 
                 National Business Aviation Association

    The National Business Aviation Association (NBAA) represents the 
interests of over 8,000 member companies who rely on the use of general 
aviation aircraft for a business purpose. General Aviation includes 
diverse operations, with business uses that range from agriculture, law 
enforcement, fire and medevac services, to varied government, 
educational, nonprofit and business organizations. NBAA's members 
operate in every type of airspace and airport across the Nation. We 
appreciate the opportunity to provide the Subcommittee with our views 
for the hearing today on the Hudson River Airspace.
    Aviation remains the safest mode of transportation, bar none. The 
number of safely completed operations continues to rise each year. This 
impressive record is in large part due to the continued partnership 
between the aviation community and the government to pursue new 
technologies, enhanced procedures and implement new safety-based 
requirements that further improve aviation's already impressive safety 
record.
    As we all know--tragically--aviation accidents do happen. When they 
occur, the entire aviation community feels a sense of loss and pain. 
Every accident investigation provides insight and lessons as to how we 
can improve aviation safety. However, it is important to note that each 
incident involves a unique set of situations, causal elements and 
factors. In this area, the National Transportation Safety Board is 
tasked with analyzing accidents and determining the cause.

Long History of Safety Partnership
    NBAA and its member companies have a long, demonstrated history of 
partnering with the FAA to address safety issues and mitigate risks. It 
has been shown repeatedly, and again following the recent tragic midair 
collision over the New York City-Hudson River, that engaging affected 
parties to assist with the development of safety solutions produces 
better results. We commend FAA Administrator Randy Babbitt for reaching 
out to the aviation community in the days immediately following this 
accident to identify cooperative steps that could be taken to enhance 
air safety in this busy and vital air corridor.
    Specifically, the airspace and radio frequency changes proposed by 
the FAA will standardize existing procedures, provide greater knowledge 
of those local procedures to transient aircraft, and increase 
communication between FAA controllers overseeing those operations.
    While we do not yet know all the facts relating to the causes of 
the August 8, 2009, accident, NBAA believes that the actions proposed 
by the FAA will further enhance aviation safety in the New York City-
Hudson River airspace. These announced steps take advantage of 
established industry practices already in place and well known to 
pilots that regularly operate within that busy airspace. The new safety 
procedures in the low-level airspace over the Hudson River are 
reasonable and workable and our members are committed to these efforts.
    In addition to the important analysis work done on aviation 
accidents and incidents, it is also vital that we continue to maximize 
the vast operational data collected by the FAA, NTSB, aviation 
manufacturers and operators to drive future safety enhancements and 
improve accident prevention. This analytical data often contains trends 
which are important in identifying risks and capturing behaviors which 
can contribute to aviation accidents. This knowledge is vital in 
assisting industry and government efforts to improve aviation safety.

Action Key to Improved Safety
    The FAA will soon issue a detailed rulemaking proposal to 
incorporate these airspace safety proposals into regulation. We look 
forward to reviewing the proposed rulemaking and being an active and 
constructive stakeholder in the regulatory process.
    NBAA would also like to take this opportunity to urge FAA to 
implement several pending proposals that we believe would further 
enhance aviation safety.
    Nearly 5 years ago, an industry working group (The Part 135 and 125 
Aviation Rulemaking Committee) chartered by the FAA--and which I 
chaired--submitted extensive recommendations for regulatory changes 
that would update and strengthen safety for FAR Part 135/125 industry. 
These recommendations covered a multitude of subjects including basic 
requirements for flying commercially, updates to pilot duty and rest 
requirements, enhanced training for commercial pilots, revised aircraft 
maintenance requirements and role of very light jets (VLJs) in on-
demand charter operations--all of which that would significantly 
improve safety. Unfortunately, the Agency has not acted on those 
recommendations to date. A copy of those recommendations and the 
transmittal letter are attached to my testimony.
    Over the years, NBAA has consistently welcomed the opportunity to 
support FAA efforts that seek to improve aviation safety. We have 
committed significant time, energy and resources to these projects only 
to have the products of our effort languish with no improvements in 
safety. While we understand that the FAA faces resource limitations 
like the rest of us, it is frustrating to continue to support these FAA 
projects without any clear understanding whether the agency will 
implement the final recommendations.
    In the interest of continued improvement in aviation safety, NBAA 
and our members will always strive to lead, not follow. We look forward 
to working with this Subcommittee, and the other government and 
industry stakeholders to keep safety as our number one priority. NBAA 
appreciates the opportunity to provide our comments to the Subcommittee 
today. Thank you.

                             Attachment One
Part 135 and 125 Aviation Rulemaking Committee,
c/o J. Hennig (GAMA),
Washington, DC.
                                                  September 7, 2005
Hon. Marion C. Blakey,
Office of the Administrator,
Federal Aviation Administration,
Washington, DC.

Dear Administrator Blakey:

    I am writing you as the Chair of the Part 135/125 Aviation 
Rulemaking Committee (ARC) and as the representative of the diverse 
group of close to 200 participants from the operator community, unions, 
trade associations, government, and manufacturers who supported the 
ARC. With this letter and the accompanying electronic material, the ARC 
submits its recommendations to you.
    During the 27 months which the ARC worked we came to recognize the 
breadth of operations that are included in Parts 135 and 125 ranging 
from traditional passenger charter flights, to operators that support 
rural Alaska with fuel, those who transport professional sports teams, 
all-cargo carriers, aeromedical flights, and more. Each of these 
operations represents an important segment of the air transportation 
industry, but also unique needs and requirements from a safety and 
regulatory perspective. When reviewing the ARC's recommendations you 
will see that we have accommodated all communities and provided 
targeted safety improvements tailored to their operating structure, 
aircraft, size and environment.
    We also looked at the possible future operating environments. For 
Part 135 this includes the entry into service of very light jets (VLJ), 
use of advanced cockpit equipment to improve safety and enhance 
aircraft utility, and the use of airships for transportation of cargo. 
Our recommendations address the operation and certification 
requirements to support the scenarios that are envisioned.
    The ARC was also tasked with streamlining regulations. Our biggest 
initiative in this area focused on training regulations. Our 
recommendations provide an opportunity for the FAA to propose a new 
process for timely updates of training standards to make them 
applicable to current and future operations.
    The ARC additionally provides a complete rewrite of subpart F, 
which covers crewmember flight time and duty periods as well as rest 
requirements. Unlike the scheduled environment, Parts 135 and 125 
include dynamic operations with unique requirements to ensure the 
safety of crews and passengers. We believe that our majority-endorsed 
recommendation will accomplish our goal of improving the safety of on-
demand operations while providing both the operator and crew 
opportunity to proactively manage fatigue.
    Included with this letter you will find a CD which contains over 
140 recommendation documents addressing Parts 1, 23, 25, 61, 91, 119, 
125, and 135. These documents capture group discussion and decisions on 
key issues affecting this industry. Additionally, the CD contains draft 
NPRM documents which include preamble and proposed rule language to 
support the recommendations.
    I would also like to recognize the hard work and leadership of the 
workgroup chairs. The groups and workgroup chairs are:

  <bullet> Aero Medical Workgroup, Ken Javorski of CJ Systems Aviation

  <bullet> Airships Workgroup, Ron Hochstetler

  <bullet> Airworthiness Workgroup, Walter Desrosier of GAMA, and Brian 
        Finnegan of PAMA

  <bullet> Equipment and Technology, Dick Solar of Honeywell

  <bullet> Flight Duty and Rest Subgroup to Operation, Doug Carr of 
        NBAA

  <bullet> Operations Workgroup, Dave Hewitt of NetJets, Inc.

  <bullet> Rotorcraft Workgroup, Mike Hurst of Petroleum Helicopters

  <bullet> Training Workgroup, Bill Campbell of CAE SimuFlite

    Finally, I want to communicate that the members of the ARC are 
available to assist you and your staff as you consider the material. I 
would also like to thank you for again showing leadership in creating 
this Aviation Rulemaking Committee to conduct a regulatory review of 
Parts 135 and 125.
            Sincerely,
                                                  Ed Bolen,
                                           President and CEO, NBAA.
Enclosures (provided electronically): Executive Summary
Recommendation Documents
Draft NPRM Documents
Cc: Nicholas A. Sabatini, Associate Administrator for Aviation Safety, 
            AVS-1
James J. Ballough, Director, Flight Standards Service, AFS-1
Anthony F. Fazio, Director, Office of Rulemaking, ARM-1
Katherine Perfetti, National Resource Specialist Part 135
Jens C. Hennig, ARC Coordinator/Manger of Operations, GAMA
                             Attachment Two
               Part 135/125 Aviation Rulemaking Committee
Overview of ARC Process and Activities
    The Part 135/125 Aviation Rulemaking Committee (ARC) was chartered 
by the Federal Aviation Administration (FAA) on February 3, 2003, when 
the agency issued a Notice of Regulatory Review. The notice solicited 
membership and also requested comments to be submitted to the docket by 
June 3, 2003. In response to the first request for comments and 
requests for membership 97 issue documents were submitted by the 
public. On July 17, 2003, the FAA reissued the request for comment with 
a deadline of November 18, 2003, for submission of comments to be 
considered by the Aviation Rulemaking Committee.
    The issues submitted to the docket were divided up among eight 
workgroups organized around aeromedical operations (AER), airworthiness 
and maintenance (AWG), applicability (APP), airships (AIR), equipment 
and technology (EQU), operations (OPS), rotorcraft operations (ROT), 
and training (TRA).
    The ARC met as a full committee three times in 2003 and four times 
in 2004. Each meeting lasted 3 days and took place in the Washington, 
DC area. In addition to the full ARC meetings, a number of the 
workgroups also held separate meetings. These meetings included 
multiple meetings of the operations committee's subgroup on flight, 
duty and rest; meetings by the airworthiness group addressing 
certification standards for high-performance Part 23 airplanes; and 
extra meetings by the applicability group to look at large airplane 
operations in Parts 135 and 125.
    The aviation rulemaking committee's work was facilitated by using 
an online Knowledge Sharing Network (KSN) that enabled all ARC 
participants to review and comment work performed by the ARC both 
within its own group and in other group.
    In addition to holding meetings in concurrence with each full ARC 
meeting, the Steering Committee held a three-day meeting in February 
2005. Following the final Steering Committee meeting, the workgroup 
Chairs coordinated the final document during the spring and early 
summer 2005 using E-mail and the KSN. The final documents were 
circulated to the full ARC using the KSN and then submitted to the FAA 
on September 7, 2005. The final recommendation included a letter of 
submission from the ARC Chair and accompanying CD-ROM with the ARC 
Recommendations and draft NPRM material.
ARC Tasking and Decisions
    The tasking from the FAA to the ARC was to:

        a. Resolve current issues affecting this part of the industry.

        b. Enable new aircraft types, size and design and new 
        technologies in air transportation operations.

        c. Provide safety and applicability standards that reflect the 
        current industry, industry trends and emerging technologies and 
        operations.

        d. Address international harmonization and ICAO standards.

        e. Potentially rescind Part 125 from 14 Code of Federal 
        Regulations.

    Each workgroup submitted recommendations to the FAA which were 
coordinated through the Steering Committee, which had final approval on 
each document. Each recommendation received a vote which resulted in 
one of the following recommendations:

        1. full consensus recommendation: All committee members 
        approved of the recommendation;

        2. a general consensus: All committee members approved or could 
        live with the recommendation;

        3. no consensus: One or several committee members disagreed 
        with the recommendations and these committee members were given 
        an opportunity to provide a dissenting opinion to the 
        recommendation. All dissenting opinions were the responsibility 
        of the individual dissenting committee member to draft and 
        provide for inclusion in the final recommendation to the FAA.

    Prior to the final submission to the FAA, the complete 
recommendation package was distributed to the full Part 135/125 
Aviation Rulemaking Committee for comment to ensure that all issues had 
been properly captured and that all dissenting opinions had been 
submitted.
    A summary of each workgroups set of recommendations follows. 
However, all decisions and discussions should be referenced to the 
Recommendation Documents which hold the final and complete 
recommendation. In this Executive Summary, the workgroups are listed in 
order: Applicability, Aeromedical, Airships, Airworthiness, Equipment 
and Technology, Operations, Rotorcraft, and Training.
Applicability Workgroup
    The applicability workgroup was made up of over 60 active 
participants. The Committee's main focus was the proposal to rescind 
Part 125 and respond to issues concerning the type of operation 
permitted in Parts 135 and 91.
    One of the main tasks given to the ARC by the FAA was to determine 
whether to rescind Part 125. The Committee started by familiarizing 
itself with the type of operators that currently reside within Part 
125. These include private operations of large airplanes (which often 
operate under an exemption under 91), corporations flying large 
airplanes for sports teams, companies that transport parts for 
automotive manufacturers, fuel haulers in Alaska, and several other 
unique communities. The applicability group determined that this 
diverse group of operators does not fit into any other operating part, 
which is similar to statements made in the preamble to the original 
Part 125 rulemaking in 1978. Therefore, the applicability group 
recommended, and the steering committee agreed, that it would not be 
appropriate to rescind Part 125, but instead the applicability group 
should define the applicability of 125 and improve the safety 
regulations that apply. The resulting recommendation defines 
applicability of Part 125 by providing set economic and scope limits to 
private carriage for hire operations and provides changes to 91 subpart 
F to accommodate completely private operation of large airplanes and 
also provides targeted safety improvements for both sections.
    The group also considered a proposal for increasing the payload 
capacity of Part 135 cargo-only operations from the current 7,500 
pounds to 18,000 pounds, which would enable moving certain current 
operators from Part 125 into 135. A recommendation was developed for 
increased payload capacity and is being submitted to the FAA without 
full consensus.
    The applicability group also considered the expected emergence of 
very light jets (VLJs) as an important segment within the Part 135 on-
demand community and possibly even the Part 135 scheduled operator 
community. Based on these two possible market entries, the 
applicability group felt it important that it follow FAA's guidance to 
the ARC and ``[e]nable new aircraft types, size and design and new 
technologies in air transportation operations.'' The applicability 
group provided a consensus proposal for the introduction of scheduled 
turbojet operations by aircraft with less than 9 seats under Part 135. 
However, there was no consensus on whether scheduled operations under 
Part 135 in turbojet airplanes should by with a single or dual crew, 
but a majority proposal was provided. The group did provide extensive 
recommendations on how on-demand operations in very light jets should 
be conducted single pilot, which is currently permitted under 135.105 
regulations. Additional recommendations were provided by the 
Airworthiness group on certification standards for Part 23 jets and 
high performance airplanes.
    The applicability group also worked to address the issue of brokers 
acting as charter operators and define scheduled operations. The group 
worked closely with the Department of Transportation (DOT) and based on 
early recommendations by the ARC, the DOT issued broker guidance titled 
``Notice on the Role of Air Charter Brokers in Arranging Air 
Transportation'' on October 18, 2004.

Aero-medical Workgroup
    The aero-medical workgroup defined the status of medical crew 
during operations. The proper definition of medical crew is critical, 
since one of the most common scenarios in aero-medical operations is 
the transportation of patients from outlying hospitals to higher care 
facilities for which helipads the industry has developed several 
hundred private GPS approaches. With the exception of two of these 
pads, none are served by an approved weather source. The generally 
accepted method of accessing these facilities is for an air-ambulance 
to depart the metropolitan area under Part 91 and conduct the GPS 
approach to the hospital pad. (Part 91 does not require weather 
reporting at the destination.) The air-ambulance then departs the 
helipad with a patient under Part 135 utilizing exemption 6175 
(permitting the departure to be made under IFR provided the pilot's 
observations indicate the prevailing weather is above VFR minima). The 
approach to the metropolitan area may be conducted to an airport with 
approved weather reporting or more likely to a hospital helipad within 
the Class D airspace of an airport with weather reporting and for which 
the operation is approved by operations specification.
    There are several current interpretations that require the outbound 
leg to be conducted under Part 135 and thereby preclude the inherently 
safer IFR operation. The aero-medical group's proposal would modify 
119.4 to exclude from Part 135 air-ambulance operations without a 
patient on board by changing the status of medical crew.
    The group also expanded the applicability of eligible on-demand, 
making it applicable to more air-ambulance operations, since most do 
not support two-pilot crews. By the current definition, a single pilot 
crew may not be considered as ``eligible''. For the same reasons as 
stated above, the workgroup proposed to allow, under certain 
circumstances, a single-pilot air-ambulance crew to be included in the 
135.4 definition of eligible on-demand crew.
    The Committee also believes that increased use Night Vision Goggles 
(NVGs) in aero-medical operations will provide a significant benefit to 
safety. Part 61 does not recognize ``aided'' as a condition of flight 
nor does it impose any currency requirements on these operations. The 
aero-medical group's proposal incorporates in Part 61 currency 
requirements for the use of NVGs and defines in Part 135 the conditions 
under which they may be used to meet the requirements of 135.207 
(helicopter lighted surface reference) and 135.229 (lighted helipad 
requirement).
    Finally, the aero-medical group proposed a clarification to 135.128 
for approved child restraint systems specifically applicable to air-
ambulance patients under the age of two.
Airships Workgroup
    The airship working group provided a proposal for how airships can 
better be integrated into the NAS and how those types of operations, 
especially those by possible future large cargo airships should be 
regulated by the FAA. The airship workgroup provided a complete set of 
recommendations to Parts 1, 61, 91, 135 to enable these types of 
operations.

Airworthiness and Maintenance Workgroup
    The Airworthiness and Maintenance workgroup (AWG) was tasked to 
review the maintenance regulations and airworthiness certification 
requirements as related to Parts 125 and 135 for currency, 
applicability, safety, and adequacy for ``large'' airplane operations 
such as intercontinental business jets and airplanes with modified 
payload capacity. It was also tasked to look at new airplane operations 
proposed by the ARC such as all-cargo airplanes with payload in excess 
of 7,500lbs and turbine-powered airplanes in commuter scheduled 
service.
    When reviewing current maintenance requirements, the AWG determined 
that Part 125 and Part 135.411(a)(2) continuous airworthiness 
maintenance program (CAMP) requirements for large aircraft are 
appropriate and adequate based on their technical merit and the overall 
safety record. However, the group determined that airplane passenger 
seating configuration is no longer an appropriate method of 
differentiating between complex and less complex airplanes. Current 
business airplanes are not configured with the maximum passenger 
seating potential and the correlation between aircraft size and 
aircraft complexity is not likely to hold true as new technologies and 
performance capabilities are introduced into a broader range of general 
aviation airplanes. In addition, 135 accident data raises questions 
regarding the adequacy of maintenance requirements for piston and 
turboprop airplanes which are nearly all small ``less-complex'' 
airplanes. From a strategic perspective and considering the entire Part 
135 regulation and scope of current and future operations, the AWG 
recommends that a single flexible maintenance program standard for Part 
135 be established which could address the multiple of levels and 
factors that comprise aircraft complexity as well as operational 
complexity. Since the membership of the 135ARC and AWG did not include 
operators of small piston and turboprop airplanes, the AWG recommends 
that FAA form a 135 Maintenance Aviation Rulemaking Committee (135MARC) 
with the appropriate membership required to develop a new 135 
maintenance program standard.
    From a tactical perspective and to address the specific tasking to 
consider maintenance and inspection program requirements appropriate 
for ``large'' airplanes as well as new airplane operations proposed by 
the ARC, the AWG recommends that all aircraft with a maximum take-off 
weight (MTOW) of 50,000lbs or more be maintained in accordance with a 
CAMP. The AWG also recommends that the two new types of operations that 
the ARC proposes to introduce into Part 135; all-cargo airplanes with a 
payload in excess of 7,500lbs and turbine-powered airplanes in commuter 
scheduled service; be maintained in accordance with a 135.411(a)(2) 
CAMP which is consistent with the requirements of equivalent operations 
currently conducted under Part 121.
    Regarding Maintenance Training Requirements--Part 135 operators 
with a CAMP currently ``have a training program'' for persons 
performing maintenance functions. However, current regulations and 
guidance do not adequately establish the minimum standards for 
maintenance training programs which have resulted in significant 
variations in the level of training provided among operators. The NTSB 
has repeatedly recommended that air carrier maintenance training 
programs be approved by FAA to ensure that they are appropriate for the 
type of aircraft and type of operation. The AWG recommends that all 
Part 135 air carriers have a maintenance training program and that 
operators with a CAMP must have an FAA approved training program. This 
would be consistent with the recent re-write of Part 145 which requires 
all repair stations to have an employee training program approved by 
the FAA. In fact, a recent report supporting the new Part 145 training 
requirement which discusses changes in the quality and background of 
mechanics, changes in industry, changing technology and inconsistency 
in FAA oversight would be equally applicable to Part 135 operations.
    Finally, the group recognized that existing Part 23 regulations do 
not contain adequate or appropriate safety standards for turbojet 
airplanes which, up until now, have been addressed through special 
conditions, exemptions, and equivalent levels of safety. The AWG 
therefore recommends changes to Part 23 airworthiness standards 
appropriate for turbojet airplanes with consideration of operation in 
Part 135 commuter service and Very Light Jets.

Equipment and Technology Workgroup
    The Equipment and Technology workgroup was tasked with making 
recommendations regarding Part 135 and 125 equipment issues. The group 
made recommendations in the following areas:
    Regarding Mode S--The workgroup reviewed whether Mode S requirement 
was still needed for efficient air traffic management. The workgroup 
agreed that the FAA continues to make slow, but nonetheless, steady 
progress regarding the use of Mode S in the future Air Traffic Network. 
The workgroup initially considered eliminating the requirement for Mode 
S in aircraft not required to be equipped with TCAS II, however, it 
felt this position ignored the fact that the FAA is continuing to make 
progress integrating Mode S into the ATN. The workgroup reached a 
consensus that the current rules pertaining to Mode S should remain as 
written. The FAA should continue to provide exemptions to operators of 
aircraft not required to be equipped with TCAS II until such time that 
Mode S/ADS-B is integrated into the ATN and can offer safety and 
operational benefits to operators and the FAA.
    The Equipment and Technology also group worked closely with the 
Rotorcraft and Aero-medical groups to mature a recommendation on Night 
Vision Goggles resulting in the consensus recommendation submitted by 
the Aero-medical working group.
    The Committee was also asked to review a request for use of 
combination recorders CVR-FDR in rotorcraft instead of the current 
requirement for dedicated (individual) CVR and FDR units. The workgroup 
provided a proposal for permitting the use of combi-recorders on 
rotorcraft.
    The workgroup also conducted a thorough review of terminology. This 
review showed that some of the terminology needed to be updated to 
reflect current technology and operations. The Equipment and Technology 
workgroup reviewed Parts 23, 25, 27, 29, 91, 121, 125, and 135 and 
recommended changes as described in the recommendation document.
    Finally, the Equipment and Technology workgroup was asked by the 
Airworthiness workgroup to look into the feasibility of permitting 
datalink weather information in place of traditional weather radar and 
thunderstorm detection systems. Datalink weather is a rapidly growing 
technology and in the future may offer the same level and quality of 
weather information to the pilot as traditional weather radar and 
thunderstorm detection systems. The workgroup proposed enabling 
language in a recommendation item that would permit the use of datalink 
weather systems in place of traditional weather radar and thunderstorm 
detection systems.

Operations Workgroup
    The Operations workgroup (OPS) was comprised of approximately 70 
members at the beginning of the process and was well represented from 
all facets of industry and also included several FAA personnel. The 
workgroup considered 80 issue papers during its meetings and all but 
one were resolved in some manner.
    Regarding Flight, Duty, and Rest Requirements--This subject 
required the development of a subgroup which held four meetings and 
reaching majority approval of draft language to replace Subpart F of 
Part 135. The proposed language permits three options to ensure that 
crewmembers are provided adequate opportunity for sleep.
    Option one is a prescriptive set of rules similar to those 
currently in force. However, significant effort was made to modify 
those rules, generally to be more restrictive in nature, and to 
recognize the latest fatigue science and to close ``loopholes'' in the 
current rules.
    Option two is a rule set that permits the certificate holder to 
vary when a duty assignment may be made but ensures that crewmembers 
are given an opportunity for sleep at the same time every day. The 
subgroup believes this is a significant breakthrough in how to treat 
fatigue in a business that is by definition ``on-demand.''
    Option three is an allowance for a certificate holder to develop 
and implement an ``Alertness Management Program'' in lieu of the 
requirements of Subpart F. The subgroup recognizes that no guidance 
material exists to describe the requirements of this type of program 
and recommends that a separate ARC be convened specifically for that 
issue as it applies to Part 135 operations.
    A minority opinion was provided to the flight duty and rest 
proposal. The minority believes the proposal would unacceptably 
increase the hours of availability and the hours of work assignable to 
pilots employed by on-demand operators resulting in a degradation of 
safety compared to the existing rule. The minority position is that 
additional training on fatigue dangers provided to flight crews through 
mechanisms such as ``Alertness Management Initiatives'' has the 
potential to increase safety, provided that information and any such 
procedures are used only as a supplement to prescriptive limits and not 
as a replacement or means to extend or circumvent quantitative maximum 
regulatory limits. The minority offered an alternative proposal for 
Subpart F.
    Regarding Part 135 Flight Attendants--The operations workgroup 
recognized that the current Part 135 rules do not address current 
practice by industry of the use of flight attendants (nomenclature 
varies) in aircraft that are not required to have a flight attendant 
per the rule. This has created a significant void on how to treat these 
individuals from a regulatory perspective and has lead to diverse 
interpretation by the FAA at the field level. To address this issue, 
and to recognize the unique nature of the Part 135 industry and the 
individuals involved, the operations workgroup proposes to create two 
categories of crewmembers that are assigned duties in the cabin. The 
first is a Cabin Safety Crewmember (CSC), a position that is analogous 
to a flight attendant but specifically recognizes that individual's 
safety contribution to a flight. The CSC must be trained and tested per 
an approved training program. The second is a Passenger Service 
Specialist (PSS). This individual would not be permitted to perform 
safety related functions and training would be specific to the duties 
assigned. The passenger briefing requirements of Part 135 would be 
modified to require that the briefing include the status of a CSC or 
PSS.
    Regarding the Use of Child Restraints--With dissenting opinions, 
the operations workgroup provided a recommendation that, for infants 
under 24 months of age not provided a passenger seat, the parent or 
guardian may utilize any kind of restraint (except the use of the same 
seat belt) to assist in protecting the child. A great deal of quality 
research was done regarding this issue and it is seen as an incremental 
increase in safety with minimal cost. In short, some protection, while 
not perfect, is far better than no protection at all. The workgroup 
reviewed previous FAA positions on this issue, specifically the 
``diversion principle'' and finds that this is not applicable to Part 
135 operations. The necessity to restrain an infant will not result in 
the child being transported by a less safe means (automobile) due to 
the nature and expense of typical Part 135 operations.
    The operations workgroup was asked to review an NTSB recommendation 
regarding Part 135 activity reporting and provide a recommendation to 
the FAA for its implementation. The primary barrier to resolution was 
the detail required to be reported. Industry was quite concerned that 
the requirements to report would become overly burdensome and result in 
``guesstimates'' rather than useful data. Others felt that very 
detailed data was required to produce a meaningful picture of Part 135 
activity. All did agree on one thing--the level of detail proposed by 
NTSB was overly onerous and reflected limited knowledge of the Part 135 
industry. Therefore, the Committee recommended, with one dissenting 
opinion, that the FAA require that operators provide total hours flown 
to the FAA at a frequency of one time per year with some additional 
fidelity of the type of operation.
    Regarding the requirements for the ``exclusive use'' of an aircraft 
currently prescribed in the regulations, the operations workgroup 
recommended that this requirement be modified to allow an aircraft 
management or lease agreement to meet the requirements of ``exclusive 
use'' of an aircraft. The current rule was designed to inhibit new 
certificateholders and is based on the business model of the 1970s 
wherein certificateholders typically owned or exclusively leased their 
aircraft. That is the exception to the rule in the current business 
environment where most aircraft are owned by other companies and leased 
to a Part 135 certificate holder for Part 135 flights.
    Finally, regarding pilot oxygen requirements the workgroup 
recommended that this rule be modified to bring it into harmony with 
Part 91 and Part 121 requirements.

Rotorcraft Workgroup
    The rotorcraft workgroup focused on all weather operations and 
limitations specifically applicable to operations in helicopters. This 
includes landing visibility minima, performance requirements for large 
helicopters, and specific requirements for over water operations by 
rotorcraft.

Training Workgroup
    The training workgroup provided a set of recommendations regarding 
key areas of how training and checking is currently conducted in the 
Part 135 community and also introduced the concept of Qualification 
Performance Standards (QPS).
    The line check received the most comments from the public. Full 
consensus was achieved on recommendations that would allow for greater 
flexibility in the scheduling of the line check, less dependence on FAA 
resources and more importantly, to encourage the conduct of line checks 
as part of line operations. The final recommendations include: 
extending the line check interval from 12 to 24 months; provided for an 
alternative means of compliance for the initial line check in the form 
of IOE; extended the authority for line check airmen to similar 
aircraft for which they may not be qualified and providing for an 
alternative means of compliance for recurrent line checks by using a 
Line Observation Program.
    Unlike Part 121, the tasks that must be trained and checked are not 
currently defined in the Part 135 regulation. Reference must be made to 
several areas of the 8400.10 handbook and the PTS. The workgroup was in 
full agreement that the revised Part 135 rule should precisely define 
the training and checking requirements, the frequency for the training, 
the standards of crewmember performance and the minimum level of 
aircraft simulation that used to accomplish training and checking. This 
was accomplished by creation of a series of appendices to the rules in 
the form of tables. These tables are titles Quality Performance 
Standards (QPS). These tables are unique to the areas of operations 
specific to Multiengine Airplanes, Single Engine Airplanes and 
Helicopters. The tasks and standards proposed have been aligned, as 
much as possible, with Part 121 tasks and standards though the 
participation of three Part 135 training workgroup members who also 
serve on the Part 121 N&O ARC. This coordination between Parts 135 and 
121 will serve to create one single standard of training and checking 
for commercial operators and thus continue to promote one level of 
safety. Ground training requirements for pilots and cabin safety 
crewmembers were also expanded and further defined by the creation of 
Qualification Performance Standards (QPS) appendices. Details of ground 
training currently residing in the rule would be moved to the 
appendices. Ground training has been adjusted to include Crew Resource 
Management.
    The training workgroup also provided a proposal for changing the 
rulemaking process with respect to training. The proposal would endorse 
the rulemaking process presented in Part 60 with respect to QPS 
appendices. The workgroup believes that the only assurance of a ``level 
playing field'' is the existence of a regulation that sets out the 
specific requirements for training, testing and checking and clearly 
describes the level of training equipment in which these activities may 
be accomplished. However, it was recognized that being able to revise 
and/or update these regulatory requirements is essential to maintaining 
the ability to be able to respond to analysis of incident/accident 
data, as well as future aircraft and technology developments. The 
proposal states that that incorporating input from representatives of 
those whose interests are most directly affected by these regulatory 
requirements is not only an appropriate way to proceed, it is an 
essential component of maintaining effective regulatory requirements. 
In the proposal, an outline of the process that provides the 
flexibility, essential to achieve clarity and standards in regulating 
training of the widely varied population of aircraft types, operations, 
crewmember qualifications, and crewmember complements of Part 135 
operations. However, the Steering Committee strongly encourages the FAA 
to define and present in complete detail the process that would be used 
to make changes to training and testing standards for Part 135 in order 
to ensure transparency and recognition of safety and financial 
realities of the operator community.
    The Committee also introduced recommendations for expanded use of 
advance simulation. This would encourage operators to most effectively 
utilize simulator training time, the proposed rule would allow for the 
use of training in lieu of checking every other cycle. This provision 
is based on the prerequisite that approved simulators are utilized as 
the basis for the training program. Additionally, due to the increased 
crew qualification and experience requirements for eligible on demand 
operators, the proposed rule would allow for the use of an extended 
currency period for when utilizing simulators.

File Structure
    The Part 135/125 Aviation Rulemaking Committee Requirements are 
located in eight directories representing each workgroup. The 
additional four directories contains: (1) draft NPRM Material, (2) 
[this] Executive Summary and Letter, (3) WG Participants, and (4) 
Additional Rulemaking material including the 1978 preamble language and 
the Part 135 Air Taxi Operator Study.
    Any questions should be addressed to:

        Jens C. Hennig
        Manager of Operations
        General Aviation Manufacturers Association (GAMA)
        Washington, DC
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                        Hon. Christopher A. Hart

    Question 1. I understand that one reason that air traffic control 
service cannot be provided to aircraft in the Hudson River Class B 
Exclusion Area is that our current ground-based radar cannot reliably 
detect aircraft under 1,000 feet due to the surrounding buildings. 
Would NextGen air traffic control technology change this?
    Answer. The NTSB understands that the implementation of automatic 
dependent surveillance-broadcast (ADS-B), which is a key feature of 
NextGen air traffic control (ATC), will greatly improve coverage 
throughout the U.S., including within the Hudson River corridor.

    Question 2. What are the capabilities of this technology and in 
what ways could it improve air traffic coverage in the air space 
surrounding New York City?
    Answer. Because ADS-B is a satellite-based system, it does not have 
certain limitations of radar-based systems, such as line-of-sight and 
obstruction constraints. Additionally, through the use of ADS-B IN and 
OUT, pilots will have greater situational awareness of other aircraft 
operating in the same airspace. The adoption of this technology has the 
potential to make better use of the airspace while increasing the 
safety of aircraft operations. The use of ADS-B OUT provides capability 
for aircraft to report their location to ATC. ADS-B IN provides a 
method of sending information to pilots, such as clearances and runway 
status, and the location of surrounding aircraft and ground vehicles, 
generally providing greatly improved situational awareness for pilots.
    I understand that on August 30, 2007, the FAA awarded the ITT 
Corporation a $207 million initial contract to lead a team to develop 
and deploy the ADS-B system.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                             James K. Coyne

    Question 1. I understand that one reason that air traffic control 
service cannot be provided to aircraft in the Hudson River Class B 
Exclusion Area is that our current ground based radar cannot reliably 
detect aircraft under 1,000 feet due to the surrounding buildings. 
Would NextGen air traffic control technology change this?
    Answer. As you know, NextGen is the modernization of ground-based 
radar infrastructure to satellite-based navigation for aircraft. The 
ADS-B system is an advanced surveillance technology that combines a 
satellite positioning service, aircraft avionics, and ground 
infrastructure to enable more accurate transmission of information 
between aircraft and air traffic control (ATC). The system enables 
equipped aircraft to broadcast information, such as identification, 
current position, altitude, and velocity, continually. ADS-B uses 
information from a position service, e.g., Global Positioning System 
(GPS), to broadcast the aircraft's location, thereby making this 
information more timely and accurate than the information provided by 
the conventional radar system. ADS-B also can provide the platform for 
aircraft to receive various types of information, including ADS-B 
transmissions from other equipped aircraft or vehicles. ADS-B is 
automatic because no external interrogation is required, but is 
``dependent'' because it relies on onboard position sources and onboard 
broadcast transmission systems to provide surveillance information to 
ATC and ultimately to other users. Concerns continue to remain that 
legislation to reauthorize the Federal Aviation Administration (FAA) 
will continue to be delayed, further postponing the necessary funds for 
NextGen.

    Question 1a. What are the capabilities of this technology and in 
what ways could it improve air traffic coverage in the air space 
surrounding New York City?
    Answer. NextGen is essential to ensure that all aircraft throughout 
the country have a reliable system in which to operate in. Currently, 
ground-based radar varies from airport to airport, including the Hudson 
River Class B Exclusion Area, and it is dependent on numerous factors. 
In the case of the Hudson River Class B Exclusion Area, satellite radar 
would not be impeded by surrounding infrastructure making it safer to 
fly more air traffic through the corridor.

    Question 2. In your written testimony you state that the FAA is not 
``leading the charge to move forward with electronic mediums that 
general aviation aircraft can assess.'' Will you explain in what ways 
you believe that FAA is not leading the charge when it comes to the 
implementation of NextGen Air Traffic Control technologies for general 
aviation.
    Answer. NATA believes that general aviation aircraft should have 
the ability, if an aircraft owner so chooses, to equip their aircraft 
with technology that will allow a satellite feed of radar to view any 
aircraft activity surrounding their aircraft. We have GPS in our cars, 
why not have them in our aircraft? Currently, aircraft have the ability 
to receive current weather information via satellite through a device 
that reads weather related information from the National Oceanic and 
Atmospheric Administration (NOAA). The FAA is the reason for not being 
able to access radar information.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Byron L. Dorgan to 
                             Richard L. Day

    Question. I understand that one reason that air traffic control 
service cannot be provided to aircraft in the Hudson River Class B 
Exclusion Area is that our current ground based radar cannot reliably 
detect aircraft under 1,000 feet due to the surrounding buildings. 
Would NextGen air traffic control technology, change this? What are the 
capabilities of this technology and in what ways could it improve air 
traffic coverage in the air space surrounding New York City?
    Answer. ADS-B, a NextGen air traffic control technology, can 
provide expanded and improved surveillance coverage for air traffic 
controllers in the New York area. In order for the controllers to 
provide enhanced ATC services, all aircraft operating in the airspace 
will need to be equipped with ADS-B Out.
    Additionally, in areas without radar coverage or in low altitude 
uncontrolled airspace, ADS-B can also enhance the pilot's knowledge of 
the weather, the national airspace system (NAS) status, and the 
surrounding traffic, both in the air and on the airport surface. ADS-B 
provides improved situational awareness by providing information about 
nearby aircraft such as their heading, altitude, speed, etc. Aircraft 
will need to be equipped with a cockpit display (ADS-B In) in order to 
have the capability to display this information in the cockpit.
    The FAA plans to deploy ADS-B in the New York terminal areas and on 
the surface at LaGuardia, Kennedy, and Newark airports. ITT began the 
design of these service volumes in April 2009 and completed initial 
site selection activities in September 2009. Service Acceptance Test 
(SAT) \1\ at these sites will be completed in the summer of 2010. These 
sites will achieve Initial Operating Capability (IOC) for terminal 
airspace and the airport surface by the end of calendar year 2010.
---------------------------------------------------------------------------
    \1\ During Service Acceptance Test (SAT), the team will validate 
that the installed ground stations meet key requirements outlined in 
the contract with ITT. This will support the provision of surveillance 
services for ATC separation.
---------------------------------------------------------------------------
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                             Richard L. Day

    Question. The airspace around Newark is one of the most complex and 
congested in the world. In 2006, the former FAA Administrator stated on 
the record that the Newark Liberty Air Traffic Control tower needed at 
least 35 controllers to move traffic safely, but right now there are 
only 27 certified controllers and 7 trainees manning the tower. When 
will the FAA fully staff the Newark control tower with certified 
controllers?
    Answer. With 34 employees at the Newark (EWR) airport tower, the 
FAA considers the existing staff level fully capable of safely, and 
efficiently, managing the airspace in and around the New York area. 
Currently, the facility has 26 fully certified controllers and 8 
additional controllers in training. With 34 controllers on board, and 1 
new hire at the Academy, EWR is at the midpoint of its 31-37 staffing 
range.
    The FAA will hire four additional controllers in FY2010. This will 
offset projected attrition and increase staffing at the facility. By 
the end of FY2010, the FAA projects EWR will have 37 employees, 
bringing it to the top of the staffing range.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Byron L. Dorgan to 
                              Edward Kragh

    Question. I understand that one reason that air traffic control 
service cannot be provided to aircraft in the Hudson River Class B 
Exclusion Area is that our current ground based radar cannot reliably 
detect aircraft under 1,000 feet due to the surrounding buildings. 
Would NextGen air traffic control technology, change this? What are the 
capabilities of this technology and in what ways could it improve air 
traffic coverage in the air space surrounding New York City?
    Answer. In my everyday role as a working controller at Newark 
Airport, I am not yet aware of the NextGen technology that you are 
referring to. The FAA has not involved NATCA in the development of such 
technology for the last several years. Assuming that such technology is 
forthcoming though, one would then have to question whether the other 
necessary infrastructure is in place for the FAA to fully control the 
Hudson exclusion, i.e., new equipment and positions at the NY/NJ 
control towers and expanded controller staffing and training to man 
those positions.
    The bigger question however, when one considers the overall safety 
record of flights in this airspace over the past several decades vs. 
the reduction in capacity of flights that would certainly occur if 
controllers had to talk to every single VFR flight, is whether total 
ATC control is even the safest and most expeditious option for this 
airspace. Assuming that future technology would allow me to see and 
talk to every aircraft down to the surface, I would certainly not be 
able to talk fast enough to meet the existing separation requirements 
for all the flights that currently use this airspace. Since pilots in 
the Hudson exclusion currently operate using see-and-avoid (VFR) rules 
while self-reporting their positions to one another, the capacity is 
much less restricted than it would be in a fully controlled 
environment. So ultimately once the technology will allow for total 
control, the decision must be made whether to severely curtail the use 
of this airspace by establishing total ATC control, or to allow for 
continued unfettered access to the airspace by maintaining the status 
quo as an uncontrolled VFR exclusion.
    For the record, NATCA controllers have no particular preference at 
this time for either option since enhanced surveillance is still a 
theoretical prospect, and since the safety record of this airspace is 
remarkable, given the sheer number of flights that have operated safely 
there for decades using VFR rules.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                              Edward Kragh

    Question. The New York Airspace Task Force demonstrated the 
benefits of true collaboration between air traffic controllers and the 
FAA, something the FAA has often failed to do in the past. How can the 
FAA continue this collaboration with air traffic controllers on current 
and future projects affecting the New Jersey/New York Airspace?
    Answer. NATCA stands ready to participate in the current and future 
projects of the New Jersey/New York Airspace redesign. The FAA can 
continue and improve collaboration with air traffic controllers by 
ensuring NATCA receives timely notification of the meetings. The Agency 
should also assist with scheduling the participants with enough notice 
so their facility is not forced to work with fewer controllers than 
normal while attending the meetings.

                                  <all>

</pre></body></html>
